<html>
<title> - CHILDREN'S RIGHTS IN CUBA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                       CHILDREN'S RIGHTS IN CUBA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2000

                               __________

                           Serial No. 106-163

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-020                     WASHINGTON : 2000


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Maria Dominguez, Executive Director, St. Thomas University Human 
  Rights Center..................................................    21
The Reverend Lucius Walker, Jr., Executive Director, 
  Interreligious Foundation for Community Organization...........    24
Jorge Garcia, relative of victims killed in the sinking of the 
  ``13 de Marzo,'' and former schoolteacher in Cuba..............    28
Ileana Fuentes, feminist author and participant in ``Operacion 
  Pedro Pan''....................................................    29
Jose Cohen, father of three children still being held in Cuba....    34
Neri Torres, Director of Choreography for Gloria Estefan, 
  Survivor of Cuban child labor camp.............................    36
Daniel Shanfield, Staff Attorney, Lawyers Committee for Human 
  Rights.........................................................    39

                                APPENDIX

Prepared statements:

The Honorable Christopher H. Smith, a Representative in Congress 
  from New Jersey, and Chairman, Subcommittee on International 
  Operations and Human Rights....................................    64
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from Florida...................................................    67
The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  from Florida...................................................    70
The Honorable Robert Menendez, a Representative in Congress from 
  New Jersey.....................................................    72
Maria Dominguez..................................................    74
Jorge Garcia.....................................................    78
Ileana Fuentes...................................................    97
Jose Cohen.......................................................   104
Daniel Shanfield.................................................   113

Additional material submitted for the record:

Translated selections from the Cuban Code of the Child, submitted 
  by Ileana Fuentes..............................................   120
``Elian Needs His Dad,'' by Representative Steve Largent, 
  submitted by Representative William D. Delahunt................   122
Selections from ``t A Leer!,'' Cuban primary school textbook, 
  submitted by Representative Ileana Ros-Lehtinen................   124
``Through a Child's Eyes: Protecting the Most Vulnerable Asylum 
  Seekers,'' by Jacqueline Bhabha and Wendy A. Young, submitted 
  by Daniel Shanfield............................................   135

 
                       CHILDREN'S RIGHTS IN CUBA

                              ----------                              


                        THURSDAY, APRIL 13, 2000

              House of Representatives,    
                  Subcommittee on International    
                           Operations and Human Rights,    
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) presiding.
    Mr. Smith. The Subcommittee will come to order. Good 
afternoon.
    The tragic plight of 6-year-old Elian Gonzalez has focused 
the attention of the American public on two dramatically 
different views of what life might be like for children in 
Cuba, and in particular, of what would happen to a child who 
was returned to Cuba after managing to escape to the United 
States.
    The picture presented by the Clinton administration and by 
many in the news media, especially here in the United States, 
might have been drawn by Norman Rockwell. The child is welcomed 
by a loving family, by his classmates and teachers, and life 
soon returns to normal. The only cloud on the horizon is that 
the family is poor, which in this version of events is caused 
by the U.S. trade embargo rather than by the policies of the 
Castro regime. But on the whole everyone is happy except a few 
people in Miami, who in this view are the ones who caused the 
whole problem in the first place.
    In the other picture it is the child himself who is 
unhappy, and he is likely to be very unhappy for the rest of 
his life. Upon his return to Cuba, the child is greeted by mass 
demonstrations ordered by the government. There are banners 
announcing that ``the Cuban people have reclaimed their son'' 
who was ``kidnapped'' by the enemies of the revolution.
    A government official announces that the child is a 
``possession'' of the Cuban state. Arrangements are made for a 
public appearance with Castro himself, provided that measures 
can be taken to guarantee that the child will not spoil the 
occasion by showing fear or some other inappropriate emotion in 
the presence of the dictator.
    But in this version of events the homecoming is only the 
beginning. For the rest of his life, the child will be in the 
effective custody not of his father but of the Cuban 
Government. His education will consist mostly of political 
indoctrination, and when he is 11 he will be taken to a work 
camp for weeks or months of forced labor and even more intense 
indoctrination.
    The child and his family are watched every day and hour of 
their lives by government agents. If these agents see anything 
suspicious, any signs of independent thought or action as the 
child grows older, there will be a stern warning from the 
security forces and from the local government enforcers. If he 
should ever dare to speak his mind, he can be arrested and 
imprisoned for a crime called ``dangerousness.'' And he will 
never, never be allowed to leave.
    Today's hearing is an attempt to learn which of these views 
is more consistent with the facts. We will hear from experts on 
Cuban law, who will describe the respective roles assigned to 
the family and to the government in raising children. We will 
also hear the testimony of witnesses who have firsthand 
experience with the Cuban education system, the law enforcement 
system, the Committees for the Defense of the Revolution, and 
other agencies of the government and of the Communist party 
with which the child will come in contact. I hope these 
witnesses will address not only the way the Cuban Government 
treats ordinary children, but also any special treatment it 
might be expected to give a child who had come to its special 
attention.
    Finally, we will hear testimony on the extent to which the 
United States legal system should take account of the facts 
about Cuba, or for that matter about any other country, in 
deciding whether to return a child, whether in the context of 
an asylum application or any other immigration proceeding.
    I want to make clear at the outset that I find the Elian 
Gonzalez deeply troubling. On the one hand, in determining what 
is in the best interest of the child, I firmly believe there 
should be a strong presumption that the child's best interest 
is to be with his natural parents or parent.
    But there are exceptions to this rule, however rare, and 
what troubles me the most about this case is that there has 
never been a judicial or administrative hearing to take 
evidence and find facts in an attempt to consider carefully and 
objectively whether this case falls within one of those rare 
exceptions. Instead, the Attorney General seems to have 
substituted her own intuitive judgment, based solely on an 
interview by an INS official in Cuba with the father.
    This informal factfinding process seems to have 
dramatically underestimated the extent to which the boy's 
father's actions may have been dictated by fear of the Cuban 
Government, as well as the extent to which the child's own life 
will be controlled by the government, rather than by his 
father, if he returns. Sending a child, or anyone else for that 
matter, back to Cuba is not the same as sending him to Mexico 
or France.
    For example, here is what the United States State 
Department's 1999 Country Reports on Human Rights Practices 
have to say about arbitrary interference with privacy, the 
family, home, and correspondence. This the U.S. State 
Department speaking:
    ``Although the Constitution provides for the inviolability 
of a citizen's home and correspondence, official surveillance 
of private and family affairs by government-controlled mass 
organizations, such as the Committees for the Defense of the 
Revolution, remains one of the most pervasive and repressive 
features of Cuban life. The State has assumed the right to 
interfere in the lives of citizens, even those who do not 
actively oppose the Government and its practices. The mass 
organizations' ostensible purpose is to `improve the 
citizenry,' but in fact their goal is to discover and to 
discourage nonconformity. Education is grounded in Marxist 
ideology. State organizations and schools are charged with the 
`integral formation of children and youth.' ''
    The report goes on to say, and again this is the U.S. 
Department of State speaking, ``The authorities utilize a wide 
range of social controls. The Interior Ministry employs an 
intricate system of informants and block committees, the CDRs, 
to monitor and control public opinion. While less capable than 
in the past, CDRs continue to report on suspicious activity, 
including conspicuous consumption; unauthorized meetings, 
including those with foreigners; and defiant attitudes toward 
the Government and the revolution.''
    State control over the lives of children in Cuba is perhaps 
even more pervasive than over the lives of other citizens. For 
example, Article 5 of the Children and Youth Code of the 
Republic of Cuba requires all persons who come in contact with 
children and youth ``to be an example to the formation of the 
communist personality.'' Article 11 requires that teachers 
show, ``a high mission''--the highest mission--``to the 
development of a communist personality in children.'' Article 
23 limits eligibility for higher education to children who 
demonstrate ``proper political attitude and social conduct.'' 
And there are many more.
    Maybe I am wrong about what all this means for the future 
of Elian Gonzalez. Maybe an impartial hearing would determine 
that Elian's father is acting out of his own free will, and 
that the Cuban Government will leave him in peace to raise his 
son. But we will never know until we have such a hearing.
    The proceedings that are currently going on in Federal 
court do not address the merits of these questions. Instead, 
they are limited to a narrow procedural question, and that is 
whether it was in the Attorney General's discretion to deny a 
hearing by letting Elian's father withdraw his asylum claim.
    The government is arguing that the Attorney General's 
discretion is so broad that she can either grant or deny a 
hearing, either keep Elian here or send him back, whichever she 
chooses. This may be correct. The lower court agreed that her 
discretion under the immigration laws is so broad that she can 
send Elian back to Cuba without due process. But even if it is 
correct, it is absolutely not right.
    I look forward to hearing our very distinguished witnesses, 
and at this point I would like to yield to my colleague, 
Cynthia McKinney, the Ranking Democrat.
    Ms. McKinney. Thank you, Mr. Chairman.
    We are here today because, as Members of the House 
International Relations Committee, International Operations and 
Human Rights Subcommittee, we realize the profound importance 
the Elian Gonzalez case has had on all of us. You could say the 
whole world is watching us right now. Issues regarding the rule 
of law, immigration, and foreign policy have risen to the 
forefront, fueling heated debate from all sides of the 
political spectrum.
    Today our discussion focuses on the rights of the child in 
Cuba. There is no doubt that in the course of this hearing you 
will hear horror stories about the problems within Cuban 
society. But, as in any society, a list of problems doesn't 
paint the entire picture. Right now, any unarmed black man in 
America ought to be afraid to go to New York City. I know I am 
afraid to let my son go there because he might come back to me 
in a body bag. But does that paint the entire picture of black 
life in America?
    We can't deny that there are human rights violations within 
Cuba, and we cannot deny that people lack certain freedoms in 
Cuba that we enjoy in our own country. The question is, what is 
life really like in Cuba, and how do we measure the quality of 
life in a nation?
    First, let me just state for the record, I believe in 
America. I believe in the America that puts the health and 
welfare of children first, the America that believes in the 
sanctity of family, the America that believes in the bond 
between a father and his child. But, like many other Americans, 
I am forced to confront the stark contrasts between our 
rhetoric and our policies.
    Here in Washington, DC, and in other cities across America, 
Latino children struggle to survive. They struggle against 
prejudice and discrimination. They struggle to stay out of 
prison. They struggle to enjoy what white American children 
take for granted: neighborhood schools full of equipment, happy 
teachers and high expectations; thriving neighborhoods with 
sidewalks and street lights; open spaces in parks; neighborhood 
sports programs paid for by their volunteer parents; college.
    Instead, most Latino children in this country have a much 
different experience, where their ability to speak the Spanish 
language outside of their home is assaulted by policymakers, 
and their ability to learn English is defunded by those same 
politicians. And if they happen to live in the vicinity of 
Viejecas, then they could even get bombed dead by live fire 
from the U.S. military.
    American children have easy access to video games whose 
objectives are to score as many kills as possible, and 
unfortunately our children bring those video games to life, and 
too often die at the hands of other children who take deadly 
aim at their schoolmates and neighbors with handguns and other 
weapons. In our own country, children simply have too much 
access to guns. They bring them into the schools, and 
unfortunately we know the rest.
    Yesterday President Clinton highlighted again the need for 
America to tighten its gun laws and to close the gun show 
loophole. We can't get that through Congress. In the meantime, 
however, every day our children walk into school concerned 
about their personal security. This simply doesn't happen in 
Cuba. Children don't have access to guns.
    Cuba is no paradise, but neither is Cuba a place where the 
health and welfare of children is ignored. Just as we use 
health, education, and family life statistics to assess life in 
America, we too can use them to help us tell about life in 
Cuba.
    Cuba is one of the privileged nations of the world that has 
virtually 100 percent literacy. By every standard and in every 
reference work, literacy in Cuba is as high as it is in the 
United States. In Cuba, university is fully funded by the 
government, and students don't face obstacles based on race or 
socioeconomic status, unlike in the United States, where 
affirmative action programs that embrace opportunity for 
America's minorities are being wiped out by political 
decisionmakers. Unfortunately, in the United States today 
Latino children are still far less likely to go to college than 
their white counterparts.
    A recent report by UNESCO concluded that the public 
education system in Cuba is the best in Latin America. In the 
case of Elian, straight from Cuba's educational system, he was 
so advanced for a 6-year-old that his Miami school promoted him 
to the first grade. Despite the debilitating effects of the 
U.S. embargo, Cuba has tightened its belt in other areas to 
ensure that Cuban children receive a quality education.
    In our own country we have over 40 million Americans 
uninsured and millions more who are underinsured. We have a 
health care system in this country that provides excellent care 
for the rich, but too many Americans have health care options 
that are limited.
    In Cuba, however, there is free and universal health care 
for all citizens. There is no need for an insurance card or 
lengthy phone calls over whether your HMO will pay for a 
certain procedure. Instead, Cuba has to deal with the thorny 
issue of health care tourists who go to Cuba to get medical 
attention that they can't get in their own country.
    The Cuban Government takes full responsibility for the 
health of its people. The population receives free preventive 
and rehabilitative services which range from primary care, 
routine medical attention and dentistry, to hospital care 
requiring the use of highly sophisticated medical technology. 
In addition, all necessary diagnostic testing and drugs are 
provided free of charge to pregnant women. Perhaps this is why 
Cuba has a lower infant mortality than we have right here in 
Washington, D.C.
    Because of the family doctor program, every Cuban 
neighborhood has a physician and a clinic. There are almost 3 
doctors for every 500 Cuban citizens. In the United States, our 
rate is just over 1 doctor for every 500 U.S. citizens, and we 
know the areas that are likely to go underserved. The 
preponderance of those doctors are in the swanky suburbs, not 
in our central cities or in our rural areas.
    Now, because the Cuban Government prioritizes education and 
health care for its citizens, it has produced for them solid, 
recognizable results. However, the Cuban health care system 
does experience a lack of medicine, medicine that is 
desperately needed to ensure the health of Cuban children, 
medicine that United States policy restricts from reaching the 
Cuban shores.
    Pay attention to the policy. We are currently sending 
medicine to Vietnam, China, North Korea, and Iraq. Vietnam is a 
Communist country with a government that we went to war 
against. China is a Communist country with a deplorable human 
rights record, and now with stolen military secrets that 
threaten our national security. North Korea is a Communist 
country that will get two nuclear reactors from us. And Iraq, 
our former ally, is now an enemy that we are in a state of war 
against. They all receive medicine from the United States.
    If we are truly concerned about the status of children in 
Cuba, the first thing we should do is allow medicine into the 
country. We should today devote ourselves to making the lives 
of all Cuban children better. Representatives Jose Serrano and 
Charlie Rangel have introduced bills that will allow food, 
medicine and supplies from the United States to enter Cuba. We 
should support them.
    The second thing we should do is lift the embargo. The 
economic embargo of Cuba has not produced the desired result. 
Now, it might serve as a salve on the consciences of those who 
have problems with the current government, but it certainly 
hasn't produced the results that they or we want. In addition, 
the embargo has been condemned by Pope John Paul II as 
oppressive economic measures that are unjust and ethically 
unacceptable. Congressman Ron Paul, a Republican, has 
introduced a bill to lift the embargo, and we should support 
it.
    Mr. Chairman, to merely denounce the human rights record of 
Cuba in order to justify the hard line approach of United 
States policy is insufficient. If we are serious about making a 
positive impact on human rights in Cuba, we need to reexamine 
our policies. And, by the way, if the law is changed to allow 
Elian to stay in the United States, then all of the children 
from Chiapas, Mexico, Kosovo, Yugoslavia, Beijing, China, and 
Iraq, need to be included in that law. And certainly you 
wouldn't leave out the Rwandan orphans who lost their parents 
in the genocide that Madeleine Albright and President Clinton 
wouldn't stop.
    And let's make sure that we go and find that 16-year-old 
Chinese girl who was shackled and crying as she was sent back 
to China. Let's go get the 408 Haitians and Dominicans who 
entered the United States on New Year's Day and were promptly 
sent back. Let's to out and get the children of the indigenous 
people who are negatively impacted by our insatiable thirst for 
oil, uranium and diamonds. But let's go further back and find 
all the children who tried to enter our country during the days 
of Latin America's U.S.-supported despots.
    Finally, Mr. Chairman, I am concerned about the rule of 
law. Do some people in this country think they are above the 
law? Doris Meissner, Commissioner of the Immigration and 
Naturalization Service, stated in a press statement on January 
5th that this decision has been based on the facts and the law. 
Attorney General Janet Reno has shown tremendous restraint, 
grace and courage in the face of mob intransigence. Today is 
April 13th, and still the child is not with his father.
    Let me conclude this way. As a mother, I grieve for Elian's 
mother, who gave her own life to try and bring Elian to 
America. And had she lived, this would be a different story, 
but she did not. And now we are left with a child, a little 
boy, separated from his father by a series of tragic events.
    We must not lose sight of the facts, however. Elian's 
father also had custody of Elian in Cuba. Elian's mother took 
Elian away from his father and illegally left Cuba's shores for 
America. Elian belongs with his loving father, who wants him.
    Think what will happen if we don't return the boy to his 
father. How many American children have been snatched by one 
parent and are now in foreign countries? Don't we fight to get 
our own children back? Don't all parents have rights recognized 
by international law? And the last time I checked, fathers are 
parents, too.
    False principle destroys all credibility and wisdom, and at 
the end of the day, the arguments that favor keeping Elian here 
in America, away from his father, are all built on an 
incredibly transparent false principle that destroys all 
credibility and wisdom in their position.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Ms. McKinney.
    Just let me clarify the order in which we will proceed. 
Committee rules stipulate that Members who are here at the 
gavel, in order of seniority, will make their opening 
statements, followed by other Members who were here at the 
gavel, and then Committee Members who came in later at the time 
of their arrival. So I would like to recognize at this point 
the gentleman from American Samoa, Eni Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
certainly commend you for your leadership in being a champion 
of human rights, as a Member of this Committee and over the 
years, the privilege I have had in working with you, and your 
fortitude and courage in trying to bring out to light some of 
these issues that are very important not only to our American 
community but throughout the world.
    I would like to first also express my association with some 
of the comments that were made earlier by the gentlelady from 
Georgia, very keen observation of some of the contradictions 
and the problems that we put the finger on other countries of 
the world and their problems. Sometimes we tend to forget that 
we have our own problems, and tend to kind of push it aside, 
not making it as a matter of reality to confront these problems 
courageously and to find solutions to them.
    Mr. Chairman, the issue that is before us, I don't need to 
say how much the media has played this, not only in the sense 
of our national norm, where every American parent, every 
American all over the country has seen through and between and 
below and above, and everything that we have seen about this 
child named Elian Gonzalez. Elian Gonzalez to me is not a 
Cuban, he is a child, and I am sure that every parent here in 
America would have a sense of compassion and understanding of 
what this child is going through.
    And sincerely, Mr. Chairman, I hope we don't politicize 
this hearing to the extent of making it an emotional issue, but 
to the extent that hopefully, if the witnesses that are before 
us are going to shed more light and understanding and 
appreciation of what is happening, not only with Fidel Castro's 
administration and his own ruling there in Cuba, but also for 
us to understand more forcefully what we have to do. And I can 
say at this point in time that I don't envy what our Attorney 
General has had to go through in trying to make those 
decisions, not necessarily popular, not necessarily right, if 
there is a rightness in this issue.
    We can all claim laurels and beliefs, and everything that 
we believe, what this Nation is all about. But the bottom line 
here is that we talk about human rights of everybody else, but 
we never have a sense of appreciation if there are human rights 
also for children.
    And I sincerely hope, Mr. Chairman, that when we hear from 
our witnesses, and the dialogue and the questions, I do have 
several questions of my own that I want to proceed with this 
hearing, but I hope that our hearing will be one of 
construction and not of divisiveness, and hopefully that it 
will provide a better bearing, not only for Elian's sake, but 
certainly as a Nation we need to reflect deeply about the 
serious social and political implication of what this case has 
brought to the Nation by the media.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Faleomavaega. Just let 
me say, before yielding to Mr. Diaz-Balart, that it is worth 
noting at this juncture that if we were to conduct such an 
exercise as this in Cuba, unless we agreed with the government, 
we would be thrown in jail, or at least arrested or 
interrogated. The Country Reports on Human Rights Practices 
make it very clear that the estimation is that there are 
between 350 to 400 political prisoners in human jails.
    I yield to Lincoln Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman, and I thank the 
Committee for its courtesy in permitting me, as a Member of the 
Rules Committee, to be here today and express my thoughts.
    I think that in the just 4\1/2\ months since the Elian 
Gonzalez matter has brought to international attention the 
issue of Cuba, it is important to point out the abuses against 
children in Cuba that highlight the lack of parental and 
children's rights under the totalitarian state there.
    I have some examples that I would like to mention, just a 
few that have come to my attention due to the courageous, very 
courageous work of independent journalists on the island who 
have managed to send out to the international community despite 
a law that Castro's public parliament passed just a few months 
ago threatening up to 30 years imprisonment for ``crimes'' such 
as reporting on human rights abuses.
    On January 14th of this year, the independent journalist 
Victor Rolando Arroyo was sentenced to 6 months in prison for 
purchasing toys to give to needy children in Cuba to 
commemorate Three Kings Day, which is in the Hispanic world the 
day in which Christmas is commemorated for children. During his 
trial, Mr. Arroyo stated, ``I think public opinion,'' 
international public opinion, ``needs to meditate on what has 
occurred and evaluate that in Cuba you are not allowed to give 
toys to needy children. The government mobilizes thousands to 
claim a child, while thousands are denied a simple toy which 
might bring them a smile.''
    January 22nd of this year, in the town of Betancourt in 
Matanzas, the family of Miguel Sigler Amaya, an activist of the 
Movimiento Opcion Alterantiva, was brutally beaten by the 
branch of Castro's state security forces known as Brigades of 
Fast Response. The four children of Mr. Sigler Amaya, who range 
in ages between 2 and 14, after the brutal beatings, were 
arrested along with their mother, who was also arrested in a 
semi-conscious state due to the attack by Castro's agents.
    January 24th of this year in Lat Tunas, a 9-year-old girl, 
Alva Riveron Fuentes, was expelled from school for not 
participating in the activities of the Young of Young Communist 
Pioneers.
    The 14-year-old daughter of the dissident Leida Miranda, on 
January 25th in Cienfuegos, was reported missing to police. The 
police informed Ms. Miranda, the dissident, that they ``did not 
have gasoline in their vehicles to search for her daughter.'' 
Ms. Miranda further denounced he Cuba Press that the police had 
expressly refused to post missing posters of her daughter.
    March 13th in Caibarien, Villa Clara, Duniesky Rodriguez, 
age 17, was beaten by the police of Santi Espiritu because of 
his friendship with members of the dissident movement. A Cuban 
state security agent named Jorge Luis, last name unknown, told 
the 17-year-old that he has 30 days to leave Caibarien.
    March 14th of this year, it was reported from Havana by 
Hector Maseda that 10th and 11th graders from the vocational 
school Lenin were being obligated to participate in daily 
demonstrations. The students are taken daily to political 
activities after completing their class days. One student 
stated, ``We are exhausted due to these countless 
demonstrations and the lack of proper nutrition in our school. 
We are awakened at 6. Many times we don't get to our room until 
1 in the morning due to these forced demonstrations.''
    April 3rd in Las Tunas, dissident Aida Perez, the 
grandmother of 12-year-old Isidro Quinones Perez, who has been 
missing for 4 months, denounced that the National Police refuse 
to search for her grandson. Matter of fact, they told her, 
``Look for him, and when you find him, turn him over so we can 
place him in a correctional school.''
    April 4th this year, this month, in Camaguey, Jorge Ribes 
was sentenced to 7 months in prison for not permitting his 4th 
grade son to participate in the Union of Young Communist 
Pioneers or participate in political activities during school 
hours. The school principal, her name is Maritza Varon, 
denounced Mr. Ribes to the police. He was charged with ``an act 
against the normal development of a child.''
    April 5th, this month, 76 elementary school children in the 
school Arquimedes Colina were denied a weekend pass to see 
their parents because they had refused to see the television 
programs, which are daily now, called ``tribuna abierta,'' 
where Castro discusses the Elian affair.
    April 10th, reported from Havana--that is just 3 days ago--
that all the middle schools in the city have required the 
children to answer a question at the end of their math exams: 
What is your opinion on the Elian Gonzalez case? The children 
are graded on their responses. A parent interviewed by Cuba-
Verdad press stated, ``At first I did not understand. I thought 
I was not listening correctly, then I thought my child had 
confused the subject area, and later I was totally shocked to 
find out that this is true.'' Another parent stated, ``My child 
asked me, what did mathematics have to do with Elian?'' I did 
not know the answer. I was completely dumbfounded.
    Day before yesterday, El Nuevo Herald of Miami reported 
that Hans Dominguez, who is 15, not only was harassed but 
threatened with expulsion because his father is a member of the 
``30 de Noviembre Frank Pais'' opposition party.
    It is going on now. It is not theory, Mr. Chairman.
    I am always curious as to how it is that it seems that for 
some people it is not all right for black dictators in Nigeria, 
for example, like Abacha, to oppress people, or Sereras in 
Haiti. I know that I certainly was in the front row of all our 
efforts to oppose those dictatorships. And yet it is all right 
for white dictator, son of a Spanish soldier who went to Cuba 
to fight the insurrection, the Cuban insurrection, a white 
dictator, it is all right for him to oppress a people, a 
majority of which are black and mulatto.
    The leaders of the Cuban opposition today, people like 
Vladimiro Roca and Felix Bonne and Jorge Luis Garcia Perez 
Antunez, are black men and women, and they are going to be 
elected in the future as leaders of Cuba when there is a 
democratic Cuba. And the reality of the matter is, postponing 
the inevitable is not only abhorrent but it is, as I have said, 
making excuses for a Spaniard white dictator to oppress a 
people that is majority mixed race.
    Mr. Smith. Thank you very much, Mr. Diaz-Balart.
    The Chair recognizes Mr. Payne.
    Mr. Payne. Thank you very much. I was going to just pass, 
because of the deference to the witnesses, but I do want to 
clarify the issue of black dictators, Abacha, I think he was 
trying to say. But we have, it was myself and the Members of 
the Congressional Black Caucus that said we should have 
sanctions on Nigeria, that we should press all kinds of ways to 
have human rights in Nigeria.
    And so I don't know where race has anything to do with the 
rights of children. I am a new grandfather of triplets. They 
are 19, 20 months old. I raised my own children, now I have 
triplets real close to me. And so I thought this was dealing 
with the rights of children, and children in Cuba.
    And I think that we are already seeing people talking 
about, as Ms. Cynthia McKinney mentioned, the fact that there 
are certainly inequities in the U.S. Government system. Of 
course, the law was passed and people have taken advantage of 
the law, but in this country we have found that African 
Americans who have been here since 1492 are still trying to get 
laws, trying to get Confederate flags taken down, trying to get 
equal opportunity.
    And so I think that this whole question is becoming broader 
and it is starting to take a face that I think is not healthy 
for the residents of Florida, in particular in Miami. I have 
heard statements recently that I have never heard before. We 
are a country of laws, and when you don't like the law, you 
don't defy the law. You don't take the law into your own hands. 
You don't say that you are not going to comply. You don't have 
elected officials say we are going to restrain our police 
officers from doing their job.
    I have been pretty silent on this case, but I see that it 
is taking some different--it is moving in other directions, and 
I think that it is unhealthy, and I think that it is 
stimulating some of us who have sat back to become very 
involved and very forceful and very vocal in this whole matter. 
So I will yield back the balance of my time.
    Mr. Smith. Thank you very much, Mr. Payne.
    The Chair recognizes Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much. I would like to thank 
the Chairman of this Subcommittee, my friend and dear 
colleague, Congressman Chris Smith, for his commitment to human 
rights throughout the world and for his ongoing leadership and 
for the cooperation in holding this very important hearing 
today.
    When Patrick Henry said, ``Give me liberty or give me 
death,'' little did he know that he would inspire future 
generations of Cuban freedom seekers who risk life and limb to 
fight and to escape Castro's gulag. Little did he know that his 
words would resonate loudly in the heart and mind of Elizabeth 
Brotons, Elian Gonzalez's mother. Her voice is never listened 
to very much, but she drowned praying for her little boy to 
survive and reach our great country, the land of liberty, the 
United States, that has given refuge to Mr. Diaz-Balart and to 
myself.
    Stop a moment and think how horrific must living conditions 
be under oppressive totalitarian dictatorship, how fearful must 
Elizabeth Brotons have been for her little boy's future, that 
she would take such desperate measures. Only those who have 
personally experienced communism, who have had liberty taken 
away from them, could fully understand how heinous the Castro 
regime is to its people and especially to its children.
    The case of Elian Gonzalez has received much media 
attention, but despite our best efforts to counter the Castro 
propaganda machine, the truth about conditions for children in 
Cuba, the facts about a communist dictatorship's sense of 
family and its treatment of children, the reality which awaits 
Elian if he is deported to Cuba, these facts have yet to 
receive the attention they merit.
    First, let us address the fallacy that Elian would be 
returned to his father. Castro officials themselves last week 
stated clearly and publicly that Elian is indeed the property 
of the Cuban state. This country went to war to eradicate such 
abhorred treatment of persons, as if they were subhuman or 
treated as property, yet we should tolerate such conditions and 
such treatment for Elian Gonzalez? No, not for Elian, and not 
for any child.
    This disregard for the value of children as human beings, 
and for the essence of the family, is pervasive throughout the 
so-called laws which guide the Cuban communist regime. Custody, 
according to the Cuban Code of the Family, Codigo de la Ninez y 
de la Juventud, can be denied to parents if they engage in 
behavior which runs contrary to communist teachings. It is not 
me saying it, it is not Lincoln saying it. They publish it. 
They are proud of it.
    This is further illustrated in Articles 5 and 8 of the Code 
of the Child, which underscores that the society and the state 
work for the efficient protection of youth against all 
influence contrary to their communist formation. And it further 
states that the society and the state watch to ascertain that 
all persons who come in contact with the child constitute an 
example for the development of his communist personality. Those 
are quotes.
    To ascertain whether these dictums are acted upon, all that 
one needs to do is ask hundreds of children, children who have 
been left orphaned by the regime as their parents, Cuban rights 
activists and dissidents and political prisoners, languish in 
squalid jail cells, isolated from their sons and daughters.
    This is the case of Noemi, the 9-year-old daughter of 
Milagros Cruz-Cano, who was deprived of her mother because 
Cuban State Security continued to arrest Milagros for her 
``antisocial'' and ``dangerous'' behavior. Those are Castro's 
charges for those who call for human rights, for civil 
liberties, for democracy. That is a crime in Castro's Cuba.
    Milagros was forced into exile by the Castro regime, forced 
to board a plane last October. Castro's thugs, however, refused 
to let her take her daughter, who is now essentially a hostage 
of the regime. All photographs and letters from her mother are 
seized. Her every move is monitored. She is followed by State 
Security. Noemi is chastised and subjected to psychological 
torture because of her mother's political views.
    This is not fiction. This is not a made-for-TV movie. This 
is reality, right now. I have had the honor of spending a lot 
of time with Milagros, who is on a hunger strike in Little 
Havana. I have seen her sorrow and her anguish. I have heard 
her frustration in her voice, and her astonishment at the 
willingness of so many to believe and promote Castro's facade 
about family and the need to reunite Elian with his father.
    I have seen and heard this same anguish in Jose Cohen, one 
of the witnesses who will be testifying today, who has been 
struggling for over 4 years for the Castro regime to release 
his three children.
    However, the pain that Jose and Milagros feel cannot 
compare to the unbearable loss experienced by mothers, by 
fathers, by grandparents of the children who were murdered by 
the Castro regime on July 13, 1994, just a few years ago. These 
infants, toddlers and teenagers joined their families in the 
tugboat that was named ``13th of March'' for a voyage that 
would, they say they hoped, they prayed, bring them to the land 
of liberty, the United States.
    However, the Cuban Coast Guard quickly turned water cannons 
on them, and when that did not succeed in drowning them all, 
they proceeded to ram the Coast Guard vessels into their tiny 
tugboat until it was destroyed. Yes, they heard the cries of 
the children calling out for their parents as they gasped for 
air. Yes, they saw their frail little hands reaching out from 
beyond the waves. Yes, they felt the presence of death as their 
tiny bodies floated into the abyss. But Castro's thugs did not 
care.
    Another one of today's witnesses, Jorge Andres Garcia, 
knows firsthand about this terrible crime, this gruesome 
example of the Castro dictatorship's abuse against Cuban 
children. He will describe the attack which resulted in the 
death of 14 out of 17 of his relatives, including his little 
grandson. He will elaborate upon the tactics used by the regime 
to manipulate him into endorsing the official version of 
events.
    Mr. Garcia will explain how the very same Remirez Estenoz 
whom we now see at the side of Juan Miguel Gonzalez, Elian's 
father is the one who was tasked to defend the attack on the 
``13th of March'' tugboat. The Castro regime had violated the 
most fundamental right endowed to man by the Creator, the right 
to life. Yet it would denounce the children and their parents 
in order to justify its actions.
    When looking at children's rights in Cuba, and also Codigo 
de la Familia, another one of their proud statements about the 
rights of children, we must look at the indoctrination, the 
psychological and physical torture, the destruction of the 
child's psyche and the sense of right and wrong. We must pause 
and look at the evidence, such as the one displayed in that 
photograph of that poster, mandatory physical education in 
Castro's Cuba, a photograph taken just a few months ago.

    Children who are 5, 6, 7 years old, holding rifles above 
their heads as part of their mandated physical education class. 
However, these are not mere exercises. This photograph 
illustrates the requirements that are clearly outlined in their 
very proud articles of the Cuban Code of the Child, which 
states, ``Children and youth must prepare themselves for the 
defense of the country through military education, acquisition 
of military knowledge and training.''
    So this is everyday, and the state reinforces this 
requirement through books such as this one. And this is an 
actual photocopy of a book, a normal, regular text that is used 
in Castro's Cuba, where they are given letters, and how will 
they learn the letters? ``F'' for ``fusil,'' a rifle. And how 
do they learn the ``G'' word? Well, they learn the ``G'' word, 
the ``gu'' by guerrilla, and they have a picture here of a 
guerrilla. And Che, right here, pictured front and center, the 
heroes of the revolution. And how will they learn how groups 
are formed? Well, here they have a proud militia, because that 
is the ``M'' word, ``M'' for militia.
    And that is how they learn education in Cuba. Could anyone 
argue that this is an example of a healthy environment for 
children, to be subjected to this type of indoctrination since 
the age of 4? Is this the kind of rights that children enjoy in 
Cuba?
    And this is the issue also of child slave labor. Article 44 
of the Cuban Code of the Child underscores how ``the 
combination of study and work is one of the fundamentals on 
which revolutionary education is based.'' ``This principle,'' 
it states, ``is applied from infancy through simple labor 
activities; in primary education through farming, and pioneer 
activities in the modes of production; in middle education, 
through farm labor camps.''
    Indoctrination, torture, forced labor, combat training, 
murder, these are but just a few, a microcosm really of the 
gross violations of children's rights committed by the Castro 
regime, not in the past, right now, the very same communist 
totalitarian dictatorship which calls for Elian's return to 
Cuba.
    Do not be fooled. Open your eyes, open your hearts. Let 
them guide you to the truth about children's rights in Cuba, to 
the grim reality of Castro's tyranny, right now. Right now, 
under our watch.
    Thank you, Mr. Chairman.
    Mr. Smith. Ms. Ros-Lehtinen, thank you very much.
    The Chair recognizes Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    The Cuban Government is oppressive to adults and to 
children. That will be well documented by these hearings, as 
has already been documented before this Subcommittee in many 
other hearings that you have had, that we have had on human 
rights in Cuba and other countries.
    But Cuba is not the only oppressive government. Sudan, 
Iraq, Iran, Afghanistan, North Korea, the list goes on. We need 
a rule of law to determine how we will deal with distasteful 
situations that arise when there are politically charges 
incidents involving oppressive regimes; a rule of law, 
established principles that are applied to all similar cases, 
regardless of politics.
    Now, in Cuba they don't need the rule of law, or at least 
their government doesn't follow it. There, if a political 
advantage, a need of the dictator arises, that is what decides 
the case, rather than the application of principles. But we in 
America, we need to follow the rule of law, and we need to 
establish rules that we are willing to see followed in case 
after case.
    And this is not the only case where a child is here in 
America and that child's parents are planning to take the child 
back to an oppressive regime. In fact, that is an occurrence 
that happens hundreds or thousands of times every year, and we 
need to adopt a rule of law that applies in all similar 
circumstances. Only in Cuba would they dispense, or only in an 
oppressive government would they dispense with applicable 
principles and do whatever seems called for in a case where a 
child is at the center of a political controversy, or where a 
little boy has become internationally famous.
    Now, what should our rule of law be? Our rule of law has 
been, I think in all circumstances, that a parent, or both 
parents speaking together, speaking freely and, unless there is 
proof that that parent or those parents are abusive, that that 
parent decides where a child will live and decides many other 
things about the child, as well.
    What has been suggested, as a result of Elian Gonzalez's 
difficult plight, is that we adopt a new rule, a rule that says 
that where there is a competition for custody between a loving 
and freedom-loving American family on the one hand, and a 
parent or two parents on the other, parents that want to take 
the child back to an oppressive regime, that we should favor 
not the parent but the loving and freedom-loving American 
family. But what would this mean?
    This would mean that when the U.N. Ambassador from 
Afghanistan or Sudan or North Korea plans to go home, that we 
stop them at the airport and take their children away, and put 
those children with any freedom-loving American couple that 
wishes to adopt them. Yes, Elian's tragedy grips at our hearts, 
and the death of Elian's mother touches us all, but does Elian 
need freedom any less than the children of the North Korean 
ambassador to the United Nations, or the Sudanese Ambassador to 
the United Nations? Those children will be flying out of this 
country in a year or two or three, leaving our jurisdiction and 
going to oppressive regimes.
    In each case we must look at two values, the values of the 
parents' duty and obligation and rights to raise their 
children, versus our natural desire to see all children raised 
in freedom. And if we decide that freedom trumps parenthood, 
that politics exceeds the connection between a father and a 
child, then we had better be prepared to apply that when a 
little baby girl or boy is born in the home of the Ambassador 
or a traveler from any oppressive regime. And I don't think we 
are ready to do that, Mr. Chairman.
    So we must follow the rule of law, and it is a difficult 
and a harsh rule, but for a variety of reasons, children and 
adults leave our country every day, sometimes voluntarily, 
sometimes deported. Sometimes the children wish to leave; 
sometimes the children do not. Sometimes the children are 
infants and have no opinion on the matter at all. And we must 
be prepared to apply the same standards.
    In this case for a while we wondered whether Elian's father 
was speaking freely, and those who are opponents and the most 
vocal opponents of the Cuban regime said, ``Let him bring his 
new wife and his baby child here to the United States, so we 
know that he is speaking freely.'' That condition has been met, 
and we ought to prove to the world that even in the most 
politically charged circumstance, we follow the rule of law and 
not the rule of politics. At the same time, we ought to be 
doing everything possible to end the circumstance where 
millions of people live under an oppressive regime just 90 
miles south of our own State of Florida.
    And that concludes my remarks.
    Mr. Smith. Thank you, Mr. Sherman.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    I have another engagement, so I am going to have to excuse 
myself. In fact, I had doubts as to whether I would even be 
able to attend this particular hearing, and I had some 
reservations as to whether I wanted to make any statement 
whatsoever. I think Ms. McKinney's remarks, and Mr. Sherman's, 
reflect my own sentiments.
    But I was particularly disturbed listening today to an 
account that a videotape had been made of young Elian for 
dissemination over the public airways, indicating that he made 
a statement, before seeing his father, that he did not want to 
return to Cuba. I think that motivated me to come here today. I 
think it was a disservice to that young child.
    I am not going to make a statement, but what I am going to 
do is to read an opinion piece authored by a gentleman here in 
the U.S. House of Representatives who commands great respect on 
both sides of the aisle, and his name is Steve Largent, a 
Republican from Oklahoma. This is dated April 5, 2000, and it 
was published in the New York Times. I am going to take the 
time to read it as opposed to submit it into the record, and I 
am quoting. These are his words. These are not my words, let me 
be clear.

    Politics is keeping Elian Gonzalez from his father, and it 
is time that he is returned. It has already been too long. The 
tortuous 4-month-old custody battle over the boy rescued at sea 
last November continues to play out in the courts and in 
Washington, and now the political brawl has taken an ugly turn.
    Elian's relatives in Miami, who have temporary custody of 
him and are seeking to block his return to Cuba, stooped to 
criticizing the boy's father, Juan Miguel Gonzalez, attempting 
to whip up public sentiment for their cause. The relatives have 
suggested that the father is somehow unfit to care for his son. 
How do they know? Why are they only now raising this question? 
And what gives them or the court the right to decide such a 
thing? Do we really want the government sitting in judgment of 
every father when there is no apparent cause of action? How 
would the United States react if its role and Cuba's were 
reversed?
    After leveling these charges against Elian's father earlier 
this week, a lawyer representing the boy's American relatives 
acknowledged on television they had no proof. ``We are sure he 
loves his own son,'' admitted the lawyer, Linda Osberg-Braun, 
``and we know Elian loves his father.''
    Making political hay over a 6-year-old's tragedy of losing 
a mother may only compound his misery, experts say. Ken 
Dachman, a child psychologist in Chicago, said he worried that 
Elian's Miami relatives are shaping this child ``so that I 
don't think that he will ever be able to recover fully.'' Mr. 
Dachman, who is familiar with the case, warned that the little 
boy would be shadowed for a long time by feelings of distress. 
Elizabeth Loftus, a psychology professor at the University of 
Washington and a leading expert on memory in children, said any 
child as young as Elian would be particularly susceptible to 
suggestions that could alter his memory of his father.
    Sadly, Elian's well-being seems to have little effect on 
the poisonous political rhetoric coming from Miami and 
Washington. Some conservatives see this case as a long-sought 
opportunity to stick a finger in the eye of Fidel Castro.
    Let me say unequivocally that I am second to none in my 
dislike for Mr. Castro's totalitarian regime, but let's be 
reasonable. Elian is a little boy who has lost his mother and 
desperately needs his father. This is a family issue, first and 
foremost. To forget that and allow our hatred for the Cuban 
regime to keep us from doing what is best for the child is 
shameful. It is already a tragedy that the child lost his 
mother. It would be a travesty for our government to come 
between him and his father.
    I came to Washington with the deep-seated belief that the 
family is sovereign. You can't be for family values and at the 
same time advocate that governments be allowed to come between 
a father and a child. What a tragic mistake it would be for 
society to allow the State or Federal Government to determine 
what is best for our children. But that is exactly what is 
happening in this tug of war over Elian Gonzalez.
    As a father of four, including three sons, I know how 
important daddies are to 6-year-old boys. The question then 
becomes, is it better for Elian to live in our great country 
without his father, or to live with his father in Cuba. No 
contest. I say reunite Elian with his daddy today.
    Elian's father and five other Cubans now have their visas 
for travel to the United States. ``I'm willing to leave 
tomorrow,'' his father said in a prepared statement, ``and I do 
not want to talk to any kidnapper nor accept any condition or 
take part in any show or publicity over the handover of 
Elian.'' So what are we waiting for?

    That concludes the opinion piece by Representative Steve 
Largent from Oklahoma. I yield back.
    Mr. Smith. Thank you, Mr. Delahunt.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. As a Member of the 
full Committee, I appreciate the opportunity to be with you and 
the Ranking Democrat on the Subcommittee today.
    You call this hearing at a time in which I believe that 
certain communities and the Nation's raw nerves are exposed. 
They are exposed because of a variety of views and a variety of 
issues. Elian is only the focus of the moment, but those issues 
far surpass Elian.
    I do regret the language that is being used by some of my 
colleagues, and I think that in the days ahead they will regret 
the language that is being used. I have tried throughout this 
whole process to be balanced and restrained in terms of the 
language I have used, because I know of some of the pain of 
different communities in this country that I have shared with 
and stood by on each and every occasion that I have been called 
upon to do so.
    But I think it is abhorrent to speak of a community in such 
a way as we have heard the Cuban American community spoken of 
in this country. When I hear the words ``mob intransigence,'' 
when I hear ``wackos,'' when I hear this type of terminology, 
it begins a slippery slope in which we will paint other 
communities who feel very passionately about their issues, to 
be characterized in the same way.
    I am an admirer of Mahatma Gandhi, and I am an admirer of 
Dr. King. And their civil disobedience efforts, which I am sure 
were characterized in words just as punishing at the time, are 
now used today against a community who has shown nothing to 
date but restraint, has shown nothing today except for abiding 
by the rule of law, and has shown nothing but the possibility 
of engaging in the very same acts that Americans of every 
stripe and color in this country engage in when they believe 
that fundamentally the law is wrong. The civil disobedience 
that takes place in the streets of a city when people believe 
that a law or the enforcement of the law is morally and 
ethically wrong is not characterized in the ways that I have 
heard this community characterized.
    I have sought to believe that the rule of law must be 
upheld at all costs, but the rule of law also means the right 
of American citizens to seek redress in the courts, to seek 
appeals when they believe that the court has ruled 
inappropriately. The reason that we have appellate courts is 
because they strike down the rulings of lower courts.
    No citizen in this country is told that their rights must 
be accelerated and/or abrogated, and we rebel as Americans when 
we hear that any citizen's rights have to be abrogated or 
should be abrogated. Yet, Cuban Americans, and particularly 
this family that has sought access to the courts for peaceful 
resolution of the dispute of the issues, are told, ``You must 
accelerate your rights.'' No other citizen, when they have to 
file an appeal, is told ``You must accelerate your rights.'' 
Notwithstanding that, this group of American citizens has 
sought to go ahead and accelerate their rights, which in some 
way abrogates their rights.
    You know, I have sought to be consistent on this issue, 
whether it is in my opposition to Most Favored Nation trading 
status in China, in my support for sanctions in Nigeria, or in 
my support in sanctions against the Castro regime. I have 
joined with my friends and colleagues to create greater 
uniformity and fairness in the law, the immigration laws of 
this country. And I really, really am distressed to hear that 
while Cuban Americans are not above the law, they are certainly 
not beneath the law.
    Let me just briefly talk about the real reason I came here 
today, which is to talk about the rights of Cuban children or 
the lack thereof. The Castro regime--and I think it is 
propitious in one sense that the U.N. Commission on Human 
Rights is hearing, in Geneva, testimony about these issues--
considers children to be wards of the state. The state is 
actually charged with the integral formation of children and 
youth. In fact, Article 39 of the Cuban socialist constitution 
says that ``the education of children and youth in the 
communist spirit is the duty of a society as a whole.''
    To ensure that children are properly indoctrinated, the 
Cuban educational system maintains a dossier for each child. 
The record reflects whether the family is religious, the extent 
of the ideological integration of a child's parents, what party 
organizations the parents participate in, whether the child has 
participated in political and ideological activities, and the 
child's progress in the areas of ideological, political, and 
moral education. As Americans, we would rebel against such a 
dossier being kept on our children.
    Children are also compelled by the state to participate in 
the Union of Communist Pioneers, where they are further 
indoctrinated in communist ideology and required to participate 
in political and military readiness activities. At age 10 
children must attend agricultural work camps for 3 months every 
year, and this happens regardless of whether or not their 
parents want to give them up. The children are taken from their 
parents mandatorily. At the escuela al campo they engage in 
military games in which they learn how to hold bridges from 
enemy troops, find land mines, learn how to throw grenades 
through windows, and participate in other war or combat 
simulation games.
    Indoctrination aside, the future for Cuban children is not 
very bright. Past the age of 7, children no longer receive milk 
rations in a country that, when the Soviet Union existed, used 
to get $6 billion a year, and we did not put more food on the 
plates of Cuban families when the Soviet Union was pumping in 
$6 billion every year. No, we used it for military adventurism 
in Latin America and in Africa.
    According to the State Department's latest Human Rights 
Report, the government employs forced labor, including that by 
children. Now, sometimes my colleagues seek to refer to the 
State Department's Human Rights Reports when they find it 
propitious and ignore them when they do not find it to be 
propitious. I do not think we can do that.
    The regime claims to prohibit forced and bonded labor by 
children, but the State Department reports that the government 
requires children to work without compensation. All students 
over age 11 are expected to devote 30 to 45 days of their 
summer vacation to farm work, laboring up to 8 hours per day.
    Now, I just simply want to say there are many other rights 
that are violated. I ask unanimous consent to have the full 
statement entered into the record so I won't take up any more 
time. But I would hope--and I respect the different views that 
my colleagues hold about our policy--that we would watch the 
language that we apply to a community.
    And I would hope that the same passion would be exercised 
on behalf of Mr. Cohen, who is here before us today, whose 
children are separated from him by the Castro regime, which 
refuses to give them an exit visa as a punishment for his 
political activities. And I would hope that we would hear 
voices on behalf of Milagros Cruz-Cano, an Afro Cuban whose 
children--or whose child, I should say--Noemi, is denied her 
simply as a punishment for her activities inside of Cuba. Then 
there would be a greater sense of fairness. Then there would be 
a greater sense of equality. Then maybe we could move forward.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Menendez appears in the 
appendix.]
    Mr. Smith. Mr. Menendez, thank you very much.
    Let me now recognize Ms. Jackson-Lee.
    Ms. Jackson-Lee. First of all, let me thank the Chairman of 
this Committee and the Ranking Member for their extreme 
kindness in allowing me to both fit in and to listen. Allow me 
to give an initial apology that I may be in and out with 
hearings that I am now in the midst of.
    I left a hearing that my Committee on Immigration and 
Claims was holding, dealing with justice for victims and 
terrorism, and I left that because this is an important day. 
There are no two more stronger advocates for human rights than 
both Chairman Smith and Ranking Member McKinney, so this is an 
important day for us to begin unfolding and understanding the 
human rights issues for children around the country and around 
the world.
    Interestingly enough, might I say to you that I look 
forward to the Immigration and Claims Subcommittee holding 
hearings on the inequitable ways children are treated under 
immigration laws. I am willing to listen and to determine how 
we can do better.
    But I think it is important, since I glean from this 
hearing that the focus of the hearing happens to be in 
conjunction with the actions that are going on now, and I would 
simply like to raise some of the issues that I think are held 
by a large number of people with a great concern for human 
rights, and that is that we do believe that there is merit to 
the existence of a living and natural father who has not shown 
any evidence, in the instance of Elian Gonzalez in particular, 
to have been abusive or unfit as a father.
    So we can begin to look at the entire question of human 
rights for children, in this instance in the country of Cuba, 
but we can look for countries around the world. And we can 
begin to look as well for the treatment of children who are 
unaccompanied or come in a particular manner to this country, 
and how the INS may or may not treat them. I look forward to 
doing that.
    In this instance, however, might I share just a few simple 
points. We understand just recently that the State court has 
indicated in Florida that they have no jurisdiction and that 
this is not a custody case. This is, in fact, as we deal with 
it by the Department of Justice and the INS, a case of seeking 
asylum.
    And the only very narrow issue that we have here--and we 
understand the difference of opinion. I have always said I 
respect the views of Cuban Americans and their right to civil 
disobedience. I am a product of that. I have engaged in that, 
and I respect it. But this is a question of whether or not a 
natural parent, not accused of unfitness or abuse, at least 
with no documentation, can be allowed to make the determination 
as to whether or not the minor child should have asylum. This 
is all we ask, that Elian and his father be united. And, Ms. 
Torres--excuse me, Mr. Cohen--I would ask no less for you.
    And so I would hope that as we look to learn today and we 
look to understand today, we will look at the larger and 
broader picture of how we treat our children. Might I just add, 
because I have worked a lot in children's issues, I have served 
as a municipal court judge, I have engaged in advocacy for 
children, as many of us have, and I would only say and ask in a 
public plea, even in this hearing, that we have an opportunity 
or that we focus on the opportunity for Elian, in this 
instance, and his father to be reunited, and might I say that 
the two families be reunited.
    And, finally, that we might focus on the difficulty for a 
6-year-old to be utilized in any manner that would cause him to 
be on public display of words that we may not be aware or may 
not have any basis upon whether he has actually said these 
words, in a public video. I would ask that, whatever position 
we may have, that we not utilize those tactics, and that human 
rights be our priority for all people, and that we certainly 
review the status of human rights for our children.
    This is a very important hearing today, and I am very 
gratified for the opportunity to have been allowed to make a 
few remarks. I yield back. Thank you.
    Mr. Smith. Ms. Jackson-Lee, thank you very much.
    I would like to now present our very distinguished panel of 
seven witnesses, in the order that they will present their 
testimonies. Without objection, all of your full statements 
will be made a part of the record, but you can proceed however 
you like.
    Dr. Maria Dominguez is an attorney and the executive 
director of the St. Thomas University Human Rights Institute. A 
published specialist in immigration and refugee law, Dr. 
Dominguez has served on the U.S. delegation to the U.N. Human 
Rights Commission in Geneva, and has appeared as a witness 
before several congressional committees and subcommittees. 
Among her other activities, she was a founding co-chair of the 
Guantanamo Refugee Assimilation and Self-Sufficiency Project.
    The Reverend Lucius Walker, Jr., is the executive director 
of the Interreligious Foundation for Community Organization, 
the founder of Pastors for Peace, and the founding pastor of 
Salvation Baptist Church in Brooklyn, New York. A long-time 
protester of the United States policy toward Cuba, Reverend 
Walker is the recipient of the Order of Friendship and the 
Carlos Finley Award conferred on him by the Government of Cuba.
    Ileana Fuentes is a feminist author and critic living in 
Miami. She originally arrived here from Cuba as 1 of the 14,000 
Operation Pedro Pan refugee children whose parents sent them 
unaccompanied to this country in the hope that they would find 
a better life in the United States.
    Jorge Garcia lost 14 members of his family in the Cuban 
Government's attack on the ``13th of March'' refugee tugboat, 
including his son and grandson. A Doctor of Education in Cuba, 
he served as the director of several schools and education 
centers in Cuba. After directing an extensive investigation 
into the ``13th of March'' killings, Mr. Garcia testified 
before the U.N. Human Rights Commission about that very tragic 
and despicable incident.
    Neri Torres, a native Cuban, is the founder and artistic 
director of IFE/ILE, an artistic organization specializing in 
Afro-Cuban dance. A graduate of the National School of Arts in 
Havana, Ms. Torres is an accomplished dancer and choreographer, 
and has worked closely with artists such as Gloria Estefan. 
During her life in Cuba, Ms. Torres was also a victim of forced 
child labor.
    Jose Cohen served as an intelligence officer in Cuba for 6 
years. In 1994 he escaped Cuba on a raft and fled to freedom in 
the United States. In 1996 his parents, wife and three children 
were granted U.S. exit visas. However, during the past 4 years 
the Castro regime has refused to authorize their exit, holding 
the family in Cuba against their will.
    Daniel Shanfield is a staff attorney with the Lawyers 
Committee for Human Rights, where he overseas the Asylum 
Program. Prior to joining the Lawyers Committee, Mr. Shanfield 
served as a trial attorney for the U.S. Immigration and 
Naturalization Service, as well as a research assistant for the 
United Nations High Commissioner for Refugees in Geneva. He 
will be addressing the rule of law issues, and Members might 
want to stay on, who have expressed concerns about that, for 
his testimony.
    Doctor.

 STATEMENT OF MARIA DOMINGUEZ, EXECUTIVE DIRECTOR, ST. THOMAS 
               UNIVERSITY HUMAN RIGHTS INSTITUTE

    Ms. Dominguez. Mr. Chairman, distinguished Members of 
Congress, I thank you for the opportunity to address you on 
this very sensitive and important topic. I would like to 
particularly recognize the Representatives from Florida, 
Congresswoman Ileana Ros-Lehtinen and Congressman Lincoln Diaz-
Balart. A special salute, too, to Congressman Bob Menendez from 
New Jersey.
    I have prepared a written statement but would like the 
opportunity to submit a more extensive written testimony for 
inclusion in the record.
    Mr. Smith. Doctor, without objection, your full statement 
and that of all of our other distinguished witnesses will be 
made a part of the record.
    Ms. Dominguez. Thank you, Mr. Chairman.
    I teach human rights and the law at St. Thomas University 
in Florida, and my students have recently studied both the 
Declaration and the Convention on the Rights of the Child. They 
were surprised to learn that the United States had not ratified 
the Convention, but they are also learning that the 
implementation process is very difficult and complex.
    I have just returned from Geneva, where I attended part of 
the annual meeting of the Commission on Human Rights. Some of 
your concerns are also the concerns of other countries. I am 
hopeful that hearings such as this advance efforts in making 
human rights a reality for each and every child in the world.
    Today, however, I will specifically highlight certain Cuban 
documents that delineate and set parameters on the civic, 
political, economic, social, and cultural rights of Cuban 
children in the island. I shall start with the 1992 Cuban 
Constitution, then cover very briefly the Cuban Code of 
Childhood and Youth, as well as relevant articles in the Cuban 
Family Code.
    The Cuban Constitution, as amended in 1992, sets forth the 
goals for the Cuban State and its society. Article 1 of Chapter 
I states that Cuba is a socialist state of workers. Article 5 
further states that the Communist Party of Cuba, described as 
Marxist-Leninist and as the organized vanguard of the Cuban 
nation, is the superior leading force of the society and state, 
organizing and guiding the common efforts aimed at the highest 
goals of the construction of socialism and the advancement 
toward the communist society.
    Article 6 describes the Union of Young Communists as an 
entity having the preeminent function of promoting the active 
participation of the young masses in the task of socialist 
construction. Under Chapter IV, called ``The Family,'' Article 
38 declares that Cuban parents have the duty to contribute 
actively in their children's integral development as, ``useful, 
well-prepared citizens for life in a socialist society.''
    Chapter V, entitled ``Education and Culture,'' starts with 
Article 39, which states that ``the State guides, fosters, and 
promoted education and sciences, in all their manifestations.'' 
It lists 10 principles for its educational and cultural 
policies. I will only highlight two relevant principles within 
Article 39.
    The first one is that the state bases its educational and 
cultural policies on Marxist ideology. Second, that the state 
promotes the patriotic education and communist training for the 
new generations, and the preparation of children, young people 
and adults for socialist life.
    To implement these principles, education is combined with 
work and participation in political, social, and military 
training activities. The state also promotes the participation 
of its citizens through the country's mass and social 
organizations in the implementation of its educational and 
cultural policies.
    Finally, under Chapter VII, the Cuban Constitution 
describes fundamental rights and duties. Article 62 leaves no 
doubt as to the major principle laid out throughout the text. 
It reads, ``None of the freedoms which are recognized for 
citizens can be exercised contrary to what is established in 
the Constitution and the law, or contrary to the existence and 
objectives of the socialist state, or contrary to the decision 
of the Cuban people to build socialism and communism. Violation 
of this principle can be punished by law.''
    The second document I would like to bring to your attention 
is the Code of Childhood and Youth, Law No. 16, enacted on June 
6, 1978, which is a legally binding document on all minors, 
parents and teachers in Cuba. I have identified at least 15 
articles which should be cause for concern, and I strongly 
recommend that you read it and analyze it carefully to gain a 
wider perspective on how the State controls children's 
functions, education and upbringing in Cuba, above and beyond 
the parents.
    I especially would like to highlight Articles 3, 5, 7 
through 10, 18, 20, 23, 33, 40, 68, 83, 90, and 101. All these 
articles call for the communist formation of the young 
generations and the fostering of the ideological values of 
communism in the youth. I highlight Article 18 in particular 
because it states that educators have the elevated mission in 
the formation of the communist personality. Article 20 again 
postulates that the school is the basic educational institution 
contributing decisively in the communist formation. The Code 
highlights the State entities relationship with mass 
organizations and the Union of Communist Youth for the purpose 
of sustaining a coordinated effort in the development of 
children and youth.
    These Articles lead me to believe and conclude that 
parental decisions are certainly subservient to the state, and 
that parents, or anyone else for that matter, will be punished 
if found to disagree with the state's principle to develop the 
communist personality in children and youth. In other words, 
parents are not free to choose any alternative lifestyle for 
their children. Article 62 under the Constitution makes it very 
clear.
    Furthermore, the Cuban Family Code stipulates under Title 
II, Chapter II, entitled ``Relationship between Parents and 
Children,'' Section 1, ``Patria Potestas and its Exercise,'' 
(which means parental custody) Article No. 85, subsections 2 
and 3, that the concept of Patria Potestas entails the duty of 
the parent to inculcate the spirit of internationalism and 
socialist morality. The socialist concept of the family does 
not accept the idea of the family as a private contractual 
union. The primary role of the family in socialist Cuba is to 
contribute to the development and upbringing of children in 
accordance with socialist values. Any dissent or attempt to 
deviate from this role may be punishable under the law. The 
Family Code therefore underscores the supremacy of the State's 
principles over the parents' own beliefs and individual 
decisionmaking processes.
    In practice, all of these legal norms and laws are 
implemented through a very rigid and controlled environment. 
For example, the child is obligated to carry an identity card 
that lists all addresses, schools attended, and political 
attitude, such as the child's participation in the Communist 
Pioneers Association. This ID card serves the State's purpose 
in controlling the child throughout his formative years.
    The Cuban State realizes that the early formative years in 
a child's life are crucial for his personality development. 
Therefore, parents and the extended family cannot participate 
in the child's education or extracurricular activities which 
are contrary to the State's principles. Another method in 
implementing the State's principles is to transport children 
throughout the cities and towns to participate in political 
activities, and without obtaining parental consent.
    The State also controls children once they are of school 
age through another document called a ``Student Cumulative 
Dossier.'' The child's academic, political, and religious 
behavior is recorded by the teacher. It also records the 
parents' behavior toward religion, their political opinion, 
their economic standing, the family relations, and much more.
    This document also notes the child's participation in the 
so-called voluntary work. Children who are 10 years or older 
are required by the State to perform agricultural work at camps 
in the country for 3 months every year. Parents have no say in 
this. Promiscuity is reported to be rampant at these 
countryside schools.
    I have heard numerous accounts and testimony from parents 
who come to live in the United States out of desperation and 
concern for the lack of control they have over their children's 
lives. I know this because I am an attorney who specializes in 
U.S. immigration law. In rendering free legal services to the 
poor, I have encountered many recently arrived Cubans who need 
help in filling out their asylum applications. I have learned 
from them that there is much desperation to leave the Island 
because they feel very controlled and do not wish the same fate 
on their children. What they hope for their children is to have 
freedom in their decisionmaking processes that until their 
arrival in the United States had eluded them while in Cuba.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Dominguez appears in the 
appendix.]
    Mr. Smith. Thank you very much, Doctor. I would just like 
to note, we just got an Associated Press off the wire, and I 
will read it very briefly. It says, ``A Federal appeals court 
issued a temporary stay today that keeps Elian Gonzalez in the 
United States while the Government and his relatives fight over 
whether he will be returned to his father and sent home to 
Cuba. The order came barely an hour after the passing of a 
Government deadline for the boy's Miami relatives to hand him 
over.''
    I would like to recognize Reverend Walker.

    STATEMENT OF THE REVEREND LUCIUS WALKER, JR., EXECUTIVE 
 DIRECTOR, INTERRELIGIOUS FOUNDATION FOR COMMUNITY ORGANIZATION

    Rev. Walker. Mr. Chairman, I appreciate this opportunity to 
testify before this distinguished Subcommittee.
    I was born and raised in the great State of New Jersey, 
where I now reside. And, as you are all aware, I am the 
executive director of the Interreligious Foundation for 
Community Organization, a 33-year-old ecumenical agency which, 
among other things, has worked for reconciliation in the area 
of United States-Cuba relations since 1991. I am also the 
pastor of the Salvation Baptist Church in Brooklyn, and have 
been serving recently as the co-chair of the National Committee 
for the Return of Elian Gonzalez to His Father in Cuba.
    The issue of rights of children generally, and of course in 
Cuba, is an issue about which I am deeply concerned in all 
aspects of my work as a pastor, as a certified social worker 
and a former instructor in social work at the University of 
Wisconsin, and as a community organizer, as well as a general 
advocate in the United States and in poor nations around the 
world for the rights of children. I am, as a minister of the 
gospel of Jesus Christ, particularly concerned with family 
values, for they are profoundly important to me and are the 
cornerstone of any stable society.
    I am also very much shaped and formed by some of the tenets 
of scripture, and I shall mention two or three of those in the 
course of my comments. One I should mention now, and that is 
the teaching by the prophets, and I quote from Isaiah 
particularly, that we should come now and reason together, the 
purpose being to resolve any differences among us.
    I recognize that this Subcommittee's interest today is 
founded in part on the question of Cuba's capacity to serve in 
the healing process for Elian Gonzalez after he returns home. 
With that in mind, let me share with you our perspective both 
at the Interreligious Foundation and through the National 
Committee for the Return of Elian, our perspective on the 
rights of the child in Cuban society.
    This perspective has been formed by extensive time in Cuba, 
more than 40 visits to Cuba, the first in 1981 and most of them 
in the recent or in the last 10 years. We have worked and 
worshiped with the Cuban church community. We have visited 
families. We have talked extensively with the old and the 
young, persons in all aspects of Cuba's life, rural and urban, 
and in the course of our delivery of more than 2,000 tons of 
humanitarian aid to Cuba.
    We engage, or we attempt to engage in the work we do in 
relationship to Cuba, at the urgent and repeated requests of 
particularly Protestant church leaders whom we have come to 
know over the years who, knowing of our work in relationship to 
suffering communities in Africa and Central and South America 
and the Caribbean, other parts of the Caribbean, requested that 
we assist them in addressing the sufferings of their members 
due to the effects of the United States blockade.
    We are very much moved by Jesus's teaching in Matthew 25 
that the ultimate test of Christian discipleship is whether or 
not one gives a cup of cold water to the thirsty, food to the 
hungry, clothes to the naked, and we are also instructed in our 
own church teachings that the service according to this mandate 
from our Lord is not to be determined by whether the persons 
who are the recipient of that humanitarian and spiritual 
response should themselves be of the same either political or 
ideological or social or denominational persuasion as the 
giver. Jesus suggested that we ought to be equal in our sharing 
with all persons, no matter what their own outlook, no matter 
what their own political formation, no matter which political 
party they belong to, and therefore we are to respect others 
whether they are Democrats or Republicans.
    Our perspective is also informed by the declarations of the 
Cuban Constitution, some of which has been referred to on 
several occasions today, and by the legal codes as well as by 
public policy and practices which we have been privileged to 
observe in the course of our relations and visits and time in 
Cuba. First, a word about the Cuban Constitution, adopted in 
1976 and amended by the Cuban National Assembly in 1992. It is 
very explicit on the subjects of family, children, youth, 
education, culture, and other matters as well.
    Article 35 of the Cuban Constitution states that the state 
recognizes the family as the fundamental cell of society, and 
attributes to it essential responsibilities and functions in 
the education and formation of new generations. Article 37 
affirms the equal rights of all children, regardless of the 
circumstances of their birth.
    Article 38 states parents have the duty to feed their 
children, to assist in the defense of their legitimate 
interests and in the realization of their just aspirations, as 
well as to contribute actively to their education--as well as 
to contribute actively to their education, the education of 
their children--and their integral formation as youthful 
citizens.
    Article 40 says children and youth enjoy particular 
protection on the part of the state and the society. The 
church, the school, state institutions, and mass and social 
organizations have the duty to give special attention to the 
integral formation of children and youth.
    Another source which gives insight into Cuba's 
understanding of the rights of the child is the Family Code of 
1975. In Articles 82 through 85 of Law 1289, it is asserted 
that children are under the Patria Potestas, the parental 
rights of their parents; that parental rights correspond 
jointly to both parents and accrue to the surviving parent when 
one parent dies; that children are obligated to respect, to 
show consideration for and help their parents, and to obey them 
while under their Patria Potestas.
    These parental rights also entail the following rights and 
duties of parents: to keep their children under their 
guardianship and care, making every possible effort to provide 
them with a stable home and adequate nutrition, caring for 
their health and personal hygiene; to see to the education of 
their children; to train their children to be useful citizens; 
to administer and care for their children's property; and to 
represent their children at every judicial action.
    At no point does the Cuban Constitution state that children 
are the property of either the state or the parents. It is my 
understanding, from the reading of these Cuban documents, from 
talking with people at all levels and in a variety of 
professional capacities in Cuba, that children are not 
considered property, but rather the terms that are consistently 
used in the Constitution, in the Codes, and in the practices 
through the courts, are ``priority of,'' children are the 
priority of the state and the family; they are the 
responsibility of the state and the parents; and that children 
enjoy particular protection, yes, from the state, but also that 
protection is primarily the responsibility of the parents.
    It has been my observation that Cuban children, growing up 
in a society that is far from perfect, a society that has a 
long way to go to even achieve its own objectives of what an 
ideal society ought to be, that that society has performed and 
exercised its responsibilities to its children in such an 
effective way that children in Cuba are a wonderful combination 
of self-awareness, self-esteem, respect for adults, love of 
country, knowledge of culture, and understanding of 
international geography and history which I wish were equally 
true in every part of the world.
    I am an observer of human behavior, and as I have observed 
the relationships between parents and children, the dignity, 
the sense of calm and self-respect and pride with which 
children are able to relate to adults in the Cuban society, I 
am deeply moved. I am deeply moved as I have witnessed, as this 
whole Nation has, the strength in young Elian Gonzalez. Where 
did he get that strength? He certainly did not get it within 
the last 4 months. The strength, the dignity, the calm, the 
power of this young child must at least in major part be 
attributed to his first 6 years of life in Cuba under this 
system of education to which we are now referring. I have 
traveled extensively, and in no other country have I ever seen 
more healthy children, as well as self-confident, more secure 
and well-behaved children, as I have seen in Cuba.
    The source of this unique regard for children predates the 
Cuban Revolution. It traces back for more than 100 years to the 
founding father of Cuba, that everyone in Cuba refers to, Jose 
Marti, the founding father of modern Cuba, who said, ``The 
children of Cuba are our future. Children are the hope of the 
world.''
    There is, of course, an obvious shortage of consumer goods 
in Cuba, and we as citizens of the United States must take 
responsibility in considerable measure for those shortages 
because of our embargo. The values that underlie the response 
to this shortage in Cuba is that things are not essential, 
consumer items are not essential to life, health and education, 
not so much as are love, nurturing, social responsibility and 
family values.
    Mr. Smith. Reverend Walker, excuse me for interrupting. We 
are asking everyone to keep it around 10 minutes. It is about 
13 now. If you could just sum up, we do want to hear what you 
have to say, but if you could just----
    Rev. Walker. I thank you.
    Mr. Smith. Thank you.
    Ms. McKinney. Mr. Chairman? Mr. Chairman, you selected six 
of the witnesses, and I got to select Reverend Walker, and I 
would love for him to be able to complete his statement and to 
have his say. He came all the way from New York City to be 
here, and I would hate for you to cut him off.
    Mr. Smith. Let me just say to the gentlelady from Georgia, 
nobody is seeking to cutoff Reverend Walker.
    Reverend Walker, how much more time do you need?
    Rev. Walker. Three minutes.
    Mr. Smith. That would be fine.
    Rev. Walker. It is my observation that in Cuba, education 
and health care are considered basic human rights. In the 
Helsinki Accords, human rights are outlined in political and 
then in economic, social or cultural categories. I think Cuba 
has a long way to go in refining its human rights and its work 
in the area of the political aspect of human rights. In the 
area of social, economic, cultural rights, it excels, and we 
should recognize that. And it is in this area, as well as the 
strivings that it openly and publicly seeks to make in the 
political and the other aspects of its life, as it refines its 
own electoral system, for example, that young Elian would be 
nurtured and developed.
    Remember that Cuba came into and inherited from a 
dictatorship which our own country had supported, it inherited 
a situation in which 60 births out of 1,000 were dead births. 
The infant mortality rate was 60 per 1,000. It has reduced that 
to an amount equal to the United States. It is higher in this 
category than any other country in this region of the world.
    It has created more hospitals, it produces more doctors, it 
cares for the health of its children in such a profoundly 
significant way, that we see that health reflected in Elian and 
we see it reflected in the children of Cuba. I have never seen 
an unhealthy child in Cuba. I have never seen a child in Cuba 
that was the prototypical Third World child.
    Cuba has something to teach us, and it offers the gift of 
its care for its children to Elian as well as to all of its 
children; not only to its own children, but someone referred to 
internationalism. Cuba produces more doctors than it needs in 
order that it might export medical care to the rest of the 
world. When the revolution in Cuba triumphed, there were 3,000 
doctors. Now there are 66,000, 1 for every 170 residents, and 
it is the only country in the world which is shipping doctors 
by the thousands to the Third World to assist in the 
development of health indices in those countries.
    And so it is into this context that we would send young 
Elian. It is into this context, in which there is a vibrant 
church, in which there are people of active faith, in which 
there are people with concern for the continued development of 
all aspects of democracy and well-being, that young Elian would 
be going.
    We have also heard rumors that Cuban children are being 
taken from their families at the tender age of 8 or 11 and 
shipped off to mandatory labor camps with harsh working 
conditions. I would like to offer a more accurate picture of 
current reality. Cuban children in junior high school and high 
school do spend a month of their school year in the 
countryside. During this time they attend school for half of 
the day and help bring in the harvest for the other half.
    Richard Nuchio, former Cuban Advisor to President Clinton 
and to Senator Torricelli, describes this program as a sort of 
national service corps, AmeriCorps, volunteer brigade, 
something like in some communities the Boy Scout programs in 
the United States. Interestingly, the need for this assistance 
with farm labor has arisen in part because on the one hand of 
the level of education and the high level of professionalism in 
Cuba, and because of the negative impact of our own blockade of 
Cuba.
    Mr. Chairman, I would propose that we consider several 
directions for resolving the problems and the concerns we have 
about the climate and the context in which Elian would be 
returned. First of all, I would urge that we recognize the 
right of this child's father under Cuban law, under United 
States law and social welfare practice, to be the guardian of 
the child.
    Second, I would urge that we not politicize this issue, but 
we see the great human tragedy that has been perpetrated upon 
this child. And that which we might do in our political 
discourse to help this child in his tragedy would be to work 
assiduously, seriously for the normalization of relations, in 
order that all of the differences we have with Cuba, all of the 
criticisms which have been and will be lodged here today can be 
discussed in a mutually respectful bilateral relationship, 
rather than throwing of darts across the waters, talking past 
each other, and using rhetoric which will exacerbate the 
problem for the time to come, rather than resolve the problem 
and heal the breach between our two countries.
    Thank you.
    Mr. Smith. Reverend Walker, thank you very much.
    Mr. Garcia.

STATEMENT OF JORGE GARCIA, FORMER DOCTOR OF EDUCATION IN CUBA, 
  LOST 14 MEMBERS OF HIS FAMILY IN THE ATTACK ON THE ``13 DE 
                    MARZO'' REFUGEE TUGBOAT

    Mr. Garcia [speaking through an interpreter]. Thank you, 
Mr. Chairman. Thank you to the distinguished Congresspersons 
who are sitting here in this Committee.
    Today is a very sad day for me. Today it has been, it is 
the anniversary, 69 months have elapsed today since the sinking 
of the ``13th of March'' tugboat back in 1997, if I am not 
mistaken. Each day of this month my family pays tribute to this 
memory. We went to the sea, we went out to sea to throw flowers 
in the ocean in memory of our dead. I believe that my presence 
here today is a way of honoring their memory, as well, and I 
thank God for having given me the opportunity to be here with 
you today so that I may share with you my experience.
    I lost 14 family members in the sinking of the ``13th of 
March'' tugboat. I come from a family of teachers. My wife and 
I both are teachers. We are not an antisocial element, as we 
were classified by the Cuban Government. The first news 
released by the Cuban Government about this incident said a 
ship, a boat, capsized in Cuban waters, carrying antisocial 
elements of our society. Can there be children who are an 
antisocial element?
    I investigated at length the details of this event. The 
theory of the government was and is that this had been an 
accident. In reality, this was a crime. The government, through 
Lieutenant Colonel Aspide, who headed the government's 
investigating team, blamed an excess of weight on the tugboat 
for its sinking, for its going down; the age of the tugboat, 
how old it was.
    I don't want to go into too many details or too much depth 
with this, but I only want to appeal to your understanding of 
this situation. Can the ``13th of March'' tugboat, could it 
have been, could the ``13th of March'' tugboat been more 
fragile than the little boat ``Granma'' used by Fidel Castro at 
the beginning of the revolution to land in Cuba?
    The ``Granma'' boat traveled thousands of kilometers 
carrying 82 men on board before it got--to get to Cuban shores. 
It carried weapons, munitions and supplies. It navigated for 6 
days and it reached its target, it reached its destination. The 
``13th of March'' tugboat barely traveled 7 miles. Its journey 
lasted 50 minutes, and it was sunk.
    What followed the sinking of the ``13th of March'' tugboat 
for my family was truly a tragedy. Lieutenant Colonel Aspide 
proposed to us that we accept a luxurious residence in the 
plush neighborhood of Seewoney in Havana because the family 
would be more tranquil, more at peace in such a neighborhood. 
It also offered us a car and medical services. This was a 
proposal that Lieutenant Colonel Aspide made personally to me, 
and what I really wanted was the return of the 14 corpses. I 
did not accept the house, and I never got the bodies either. 
That is why I have affirmed that Castro is a kidnapper of 
corpses.
    I want to go on reflecting on our experience, my experience 
and my wife's experience as teachers. We have always worked in 
the teaching profession. Nobody who has not lived in Cuba can 
really speak about Cuban reality. Cuban reality has to be 
experienced from within, not just on periodic visits.
    And I would like to assure you that Cuban education is 
spartan in nature, and I can affirm that from all the years of 
experience as an educator. An official saying sums it all up: 
``To study, to work, and to carry a rifle.'' We could call this 
a subtle way of child abuse.
    Instead of continuing to talk about these issues, I am 
willing to answer any questions that you may have. I have 
researched the ``13th of March'' tugboat sinking extensively, 
and I am here to answer any questions that you may have later. 
Thank you.
    [The prepared statement of Mr. Garcia appears in the 
appendix.]
    Mr. Smith. Mr. Garcia, thank you very, very much.
    Ms. Fuentes.

STATEMENT OF ILEANA FUENTES, FEMINIST AUTHOR AND CRITIC, MIAMI, 
          FLORIDA, SURVIVOR OF ``OPERACION PEDRO PAN''

    Ms. Fuentes. Mr. Chairman, distinguished Members of 
Congress, I thank you also for the opportunity to address you 
on the sensitive and urgent issue of children in Cuba. I would 
like to recognize particularly the Representatives from 
Florida, Congresswoman Ileana Ros-Lehtinen and Congressman 
Lincoln Diaz-Balart, as well as my former Representative from 
New Jersey, Congressman Robert Menendez.
    I would like to echo, parenthetically, the distress 
expressed by Congressman Menendez. As a constituent, as an 
American citizen, and as one who has come to this hearing to 
help educate this Committee on the issue of Cuban children, it 
has belittled and insulted us, the five individuals sitting at 
this table who are Cuban Americans, to have been encapsuled in 
the term ``mob intransigence.'' I would like to request that 
every Member of this Subcommittee return our generosity in 
being here with an equal measure of respect, and I thank you in 
advance for that.
    I have prepared a statement from which I will read.
    First and foremost, a child born in Cuba enters this world 
in a society where his or her fundamental human rights, as 
guaranteed by the Universal Declaration of Human Rights and by 
three United Nations Conventions on the Rights of the Child, 
are denied by all existing legal instruments, namely the 
Constitution of the Republic of Cuba, the Children and Youth 
Code, the Cuban Family Code, and the Cuban Penal Code.
    Having said this, let me say that while a child is born in 
Cuba, he joins a family living in state-sponsored poverty. The 
greater majority of Cuban families are poor even by Third World 
standards. The average salary of a Cuban worker is equivalent 
to $100 to $120 dollars, in an economy that was ``dollarized'' 
back in 1993 when Fidel Castro himself decriminalized the 
tenure of American currency. In comparison, the average salary 
in Bangladesh is equivalent to $250.
    Thus, a child's arrival throws a family into chaos, for 
this new mouth further aggravates a severely rationed food 
basket. He or she shall encounter shortages in every aspect and 
stage of life from the onset. In fact, women across Cuba made 
sure that lack of baby and infant needs be a priority on the 
agenda in last March's Federal of Cuban Women's Congress. 
Infant and postpartum mothers' unmet needs were on the agenda, 
second only to the total absence of sanitary napkins from the 
people's market.
    These hardships are perhaps one reason why so many women in 
Cuba resort to abortions. That, and the practice of persuading 
women to terminate potentially troublesome pregnancies early 
on, could explain why 40 percent of all pregnancies end in an 
abortion in the island.
    No one should be fooled by Cuba's statistics on infant 
mortality rate. Those statistics are improved, a priori, by the 
elimination of difficult pregnancies and childbirth. In light 
of this manipulation, Cuba's infant mortality rate, which is 
between 9 and 11, depending whether it is boys or girls, in 
100,000 births, doesn't fare so well if compared to countries 
where no such manipulation occurs, such as Costa Rica, Chile 
and Uruguay, where the rate is 12, 13 and 17 respectively.
    A child born in Cuba has a life expectancy of 75 to 78, 
depending on its sex, but it is about the same, it is even 
better in some, in countries like Costa Rica, Chile, Uruguay 
and Argentina.
    Cuban children have fewer opportunities to be given 
religious upbringing or to be baptized. The Cuban Constitution 
and the Penal Code both call for sanctions, including prison 
terms, against individuals who put their religious beliefs 
before duty to communism. There are no vibrant churches of any 
denomination in Cuba, not Catholic, not Protestant, not Jewish, 
not Abacoir, not Santeria.
    Between the ages of 1 and 7, the average Cuban child will 
have a poor diet, lack appropriate shoes and clothing, and will 
be at want for basic medications against such common childhood 
ailments, ear and throat infections, head lice, and skin 
conditions such as scabies and impetigo. If a child is an 
asthma sufferer or needs antibiotic treatment, the 
prescriptions needed are not available in the people's 
pharmacy. They can be purchased, however, at dollar-only stores 
reserved for foreign personnel and tourists.
    Do not be fooled by those who insist that food and medicine 
are lacking in Cuba because of the United States embargo. Cuba 
is a natural producer of just about everything in the food 
chain except wheat, which it used to import from the United 
States prior to 1959, and from the Soviet Bloc countries until 
recently. Communist Cuba fails to feed its people because four 
decades of Castro-designed economics have destroyed Cuban 
agriculture and industry.
    As for medicines, Cuba's pharmaceutical industry is an 
exporting and revenue-producing enterprise. Its clientele is 
mostly Third World countries like Jamaica and Nicaragua. Cuba 
can, and has, purchased medical supplies and drugs at much 
cheaper prices in Central America, Canada and Europe, if it had 
any purchasing power at all. The United States pharmaceutical 
market is not even cost effective for us, who are its captive 
clientele.
    When a child reaches 7, the age of reason, two very 
unreasonable things happen to him or to her. One, the milk 
quota is suspended. Two, the Organization of Cuban Pioneers 
kicks in as the first mass organization to control the life of 
the individual. What are the Young Pioneers? According to the 
Children and Family Code, Article 102, it is ``a volunteer 
organization that coordinates tasks and activities to 
complement the formation of the communist personality.''
    A Young Pioneer must wear a red scarf around his neck, or 
her neck; declare that Fidel, and not God, is the father of all 
Cuban children; and repeat at every paramilitary meeting, 
``Pioneers of communism, we vow to be like Che.''
    This is the first identity and personality crisis a Cuban 
child-person must confront, for to be like Che, a white, non-
Cuban, genocidal male, must surely pose an identity crisis for 
little black boys, whose role model should be the great 19th 
century liberator, General Antonio Maceo, or Martin Morua 
Delgado, another illustrious black Cuban man, elected first 
president of the Cuban Senate in 1905.
    And what of little girls, black or white, who are told to 
be like a white man in fatigues? What kind of gender identity 
violation is this, to have as national role models a roster of 
white, Eurocentric, war-mongering males?
    Black Cuban children also hope to have what the white 
children of the white government elite have, and what some 
white Cuban children with access to United States dollars also 
have.
    In school, the child learns to read with an alphabet that 
enshrines that roster. ``F'' is for Fidel, also for fusil, 
rifle. ``C'' is for Che. ``Gu'' is for guerrilla. ``M'' is for 
Marx, ``L'' is for Lenin, ``S'' is for socialism, ``P'' is for 
patria, which spells fatherland.
    This child's progress will be charted in a personal file 
that will follow him or her throughout his or her life. In that 
file will be recorded not only his young revolutionary zeal, 
but that of the parents as well. Only good Communists will 
advance in the educational ladder. Only they will pursue the 
career of their choice. The file accompanies the child to 
junior high school, la escuela al campo, the farm schools.
    Between the ages of 12 and 14, children are removed from 
the custody of parents and sent to study and work in farm 
schools designed to give a child an education while extolling 
hundreds of unpaid child-labor hours in return. Parents can 
visit on the weekend, if they find transportation, of course. 
Children go home every 4 to 6 weeks. This is the time Cuban 
children officially pass into state custody, as these farm 
schools are mandatory.
    Parents and children who violate this mandate forfeit their 
right to higher education, for the famous file will reflect, 
``deviant ideological behavior unbecoming a good Cuban 
revolutionary.'' The university, Fidel Castro said years ago, 
is only for revolutionaries. The Federation of University 
Students, a mass organization, upheld the dictum on April 10th, 
just a few days ago, at their sixth Congress.
    After the Pioneers are outgrown, two other organizations 
become the obligatory course: the Federation of Intermediate 
School Students, and the Federation of University Students I 
just mentioned. Then there is the Committees for the Defense of 
the Revolution, the Federation of Cuban Women, the National 
Association of Small Farmers. For a Cuban to have any life at 
all, he or she must belong to at least one of these. It is an 
obligation for children and young adults to be militants of the 
Cuban Government, and that includes compulsory volunteer work 
while a student.
    Do not be fooled by those who insist that health care and 
education are free in Communist Cuba. Cubans pay for these 
social services through hundreds of unpaid man and woman-hours 
of forced volunteer labor in the fields, in the territorial 
militia, in national guard duty, in community-based services.
    For boys, the 15th birthday can be traumatic. That is the 
age they are set aside for the draft. Although women can join 
the armed forces, and in fact do, only boys are subject to the 
draft. On their 16th birthday, boys must report to duty. From 
age 16 to 19, young men cannot leave Cuba. The military stakes 
its claim on his life and allegiance. Thousands of male Cuban 
teenagers have gone to jail for violating this requirement. 
They are marked for a life of ostracism in a system rigged for 
loyal revolutionaries only.
    A word about young women, and I am almost through. I regret 
that I must end on an even more tragic note. For teenage girls, 
life in Cuba is a double jeopardy. In spite of education, 
without U.S. dollars, no family can make ends meet in the 
island. The reported $800 million that the exile community 
contributes to the livelihood of relatives in Cuba touches, at 
best, 10 percent of the population. I should add, the white 
population, for the exile community around the world is mostly 
white-European. So must be their relatives in the island. But 
the island's population of 12 million people is believed to be 
about 60 percent Afro Cuban.
    Conditions in Cuba therefore translate into three realities 
that are gender-specific, in that they affect the life choices 
of young Cuban women and girls. Three points.
    Women marry earlier in Cuba than in any other country in 
the hemisphere, age 19\1/2\, but they delay motherhood to avoid 
the struggle of feeding another mouth. This means women must 
resort to birth control, and in many cases to multiple 
abortions, in order to remain childless. Women bear the burden 
of birth control in Cuba, for Cuban men are traditionally 
reluctant to condoms, much less to vasectomies. The health 
implications, therefore, are a woman's issue in Cuba.
    Suicide, No. 2, is the third cause of death for Cuban 
female teenagers ages 15 to 19, usually related to early 
pregnancy or motherhood. In the global context, let me add that 
the rate of suicide among Cuban women in the island is the 
highest in the world, one woman for every many who commits 
suicide.
    In order to alleviate poverty, the third and final point, 
Cuban women as young as 13 and 14 choose to engage in 
prostitution with a foreign clientele in order to generate 
United States dollars. This has resulted in a rise of sexually 
transmitted diseases in female teenagers. The practice of 
abortions on girls as young as 12 and 13 was reported last fall 
by the Young Communist Union in Cuba, weekly paper, Juventud 
Rebelde.
    This testimony, to close, could fill reams of paper, not 
only with academic and legal analysis of the literature but 
with interviews and personal accounts from children and young 
adults who have lived through and escaped the fate that awaits 
Elian Gonzalez, a fate that a brave young woman named Elizabeth 
Brotons wanted her son to avoid. Unfortunately for all of us, 
it looks like she may not succeed.
    Thank you.
    [The prepared statement of Ms. Fuentes appears in the 
appendix.]
    Mr. Smith. Ms. Fuentes, thank you very much for your 
testimony.
    I regret to say there are two votes on the floor of the 
House that will require us to have a very brief recess. We will 
return and reconvene the hearing and then get to questioning. I 
thank you for your patience. The fact that there were so many 
Members here, especially at the outset, shows, I think, the 
heightened sense of concern.
    I know that in my own research for this hearing, while I 
had heard tangentially in the Country Reports about the Cuban 
Code of the Child and other kinds of documents, I had not known 
its full implications until this hearing and until I began 
doing some research earlier in the week. Hopefully, many 
Americans will be educated that there is such a thing. When we 
are talking about parental rights or lack thereof, this kind of 
document would be an absolute non-starter in the United States. 
It is antithetical to everything that we believe to be parental 
rights, and we will get into that when we reconvene.
    Thank you.
    [Recess.]
    Mr. Smith. I want to apologize for the interruption with 
the votes. The Subcommittee will resume its sitting, and at 
this point I would like to welcome Mr. Cohen, if he would make 
his presentation to the Subcommittee.
    Ms. Fuentes. I am going to translate for him, if that is 
OK.

  STATEMENT OF JOSE COHEN, FORMER CUBAN INTELLIGENCE OFFICER, 
               WHOSE FAMILY ARE HOSTAGES IN CUBA

    Mr. Cohen [speaking through an interpreter]. Thank you, Mr. 
Chairman. I thank God that I can thank God, after 30 years of 
living in a virtual prison. I have been living in this country 
for 6 years, and I thank God every day for having given me the 
opportunity to be a free man, something that was only a dream 
to me for many, many years in Cuba.
    The person who addresses you today is not a Cuban expert 
quoted often by journalists, academicians and experts who do a 
lot of research and come up with a lot of official statistics. 
That is not who I am. Of course, when they deal with official 
data and statistics, they are the statistics given by the Cuban 
Government. Anyone who tries to explain Cuban reality based on 
the information that the Cuban Government itself releases is 
truly wrong. It is truly not accurate.
    I was born in the year 1964, 5 years after the triumph of 
the revolution. At 4 years of age, I too said, ``Pioneers for 
communism, we shall be like Che.'' I was proud of that red 
scarf, not knowing what communism really was about. I received 
military training when I was 12 years old, and they taught us 
the ways of the guerrilla warfare. That is Cuban reality.
     A little while ago Mr. Garcia said something similar, that 
in order to talk about Cuban reality, one really had to know 
it. If you really want to know what happens to a person that 
decides to speak about Cuban reality, if you really want to 
understand what would happen to Elian's father if he were to 
decide to stay in the United States, then you have to see my 
case.
    The only thing I have done is, I made a decision to live 
according to the dictates of my conscience, to denounce what I 
was a victim of for 30 years. Sometimes people say, ``So-and-so 
expresses himself this way, so-and-so expresses himself the 
other way. They are probably bad people.'' And I said, ``No, 
they are not bad people. They are Americans who live in 
freedom, with false information. They are not bad people. If 
they knew what I know, they would not say what they say or 
think the way they think.'' That is why I respect everyone's 
opinion.
    And I am impressed, really taken by how in this chamber or 
in a university or in a symposium, people can do what nobody 
can do in Cuba. I say that I thank God that we can thank God. I 
also thank God that all of you were born and were able to live 
in this freedom. If we lived in Cuba, many of us would be in 
prison. It doesn't matter what you think. If you dare to speak 
freely, one would be in prison. If I had not left Cuba on a 
raft, I would be in prison or I would be dead. That is Cuban 
reality.
    I managed to escape as the only option to save my life, 
because I saw and I was a witness more than once, how people 
who had believed truly in the Cuban Revolution dared to speak 
their truth one day and were disappeared on the next day. The 
Cuban Government not only betrays its own ministers, its own 
dignitaries or its generals, the Cuban Government not only 
shoots its generals, the Cuban Government, make no mistake 
about it, would betray any collaborator, any person who would 
speak freely.
    The price I have had to pay for this honesty, for this 
talking my truth, has been a 6-year separation from my family. 
I have never engaged in any military action against Cuba or 
prepared any terrorist activity against Cuba. The only thing I 
have ever done, I ever did, was to come to this country, decide 
to come to this country so that my children would have a better 
life, and so that my children would not suffer what I had to 
suffer.
    I came to this country motivated by the things that I could 
observe when I started to work in the Cuban Intelligence 
Section. When I started to, when I learned what really 
happened, what the reality was with foreign investors, with 
tourists, with foreigners in Cuba, or when I saw how Pastors 
for Peace, for instance, would go to Cuba, could go to Cuba, 
defying United States law, I said my children have to be able 
to enjoy such freedom.
    And when investors came to Cuba with good intentions, 
believing in Cuba, believing in the Revolution, and they used 
to be invited out for a night of partying at, for example, 
Tropicana Night Club, and they would take their information. I 
was witness to that reality. I didn't know how to explain to my 
children in the future, ``Daddy, didn't you realize this whole 
thing, the reality of this?'' My conscience was burdened with 
such a predicament.
    But I have had to pay a very high price for all of this. My 
wife, my parents, my three little children, we are talking 
about three children, one woman, and two elderly Cubans, they 
are in effect prisoners in Cuba. Yes, they are prisoners 
because they are at home, without an ability to work, subjected 
to government harassment, without the press ever knowing about 
it, nobody knowing about it.
    When the government threw my daughter out of school, 
expelled my daughter from school; or when the mass 
demonstrations started in Cuba and the littlest, the youngest 
daughter was forced to go to the rallies in favor of Elian's 
return; when my wife receives threatening letters or a 
threatening note, and my 6-year-old picks them up and reads 
them; honestly, can anybody believe that the Castro Government 
is really interested in the fate of any child? Can anyone think 
or believe that the government of Fidel Castro is interested in 
the Cuban family?
    Elian is a symbol, and I can assure you that Fidel Castro 
is very, very interested in destroying that symbol. If Elian 
returns to Cuba, if his rights to tell his story and his case 
in court are denied him, believe me, from the bottom of my 
heart, that Elian will suffer exactly what I suffered. He will 
return to Cuba without a mother, without a father, to the hands 
of a tyrant.
    I am here so that you can get a glimpse at what can happen 
in Cuba, what could happen to your own children, to your 
family, to your wife, when you decide to speak your truth. I 
lived 30 years in Cuba. At 18, God was Castro. That is why I 
thank God for being in this country. And I hope, and I thank 
you in advance, I thank all of you, any one of you in advance 
for anything that you can do on behalf of Elian, and on behalf 
of my family, that they may also reach freedom.
    Thank you.
    [The prepared statement of Mr. Cohen appears in the 
appendix.]
    Mr. Smith. Thank you very much for that very heartbreaking 
story. I can assure you we will do everything we can, with what 
limited resources we have available. And I would hope, and I 
mean this very sincerely, that those people who do have access 
to Castro, would avail themselves not just of helping your 
family but also other families who have been hurt so severely 
by Fidel Castro. I am very much moved by your statement, and 
Mr. Garcia, by your earlier testimony as well.
    I would like to ask Ms. Torres to begin, if she would.

  STATEMENT OF NERI TORRES, DANCER AND CHOREOGRAPHER, FORMER 
              VICTIM OF FORCED CHILD LABOR IN CUBA

    Ms. Torres. Thank you, Congressman Smith, for having me 
here. It is an honor. My specialty is not talking, it is 
dancing, but I will do my best to express what the conditions 
were like when I lived in Cuba.
    Like I say, my name is Neri Torres. I am a choreographer. I 
left Cuba in 1990 via Italy, due to the fact that Cuban 
Security found out that I was leaving and kidnapped me. They 
put me in a psychiatric institution for 4 days, and I received 
all kinds of tortures from the Italian manager, who said that I 
had to be grateful to the Revolution for the things that I had.
    And there is an old Congo saying. I mention Congo because 
we in Cuba have many ethnic African groups that are part of our 
ancestors. They say, ``Seeing is believing,'' and if you don't 
live in Cuba, like they say, there is no way that you will 
experience it and it is hard to convince people about it.
    I grew up in a very active environment with intellectuals 
and politicals. In my home, it was the headquarters of the 
equivalent here of the Black Panthers. My sister was part of 
the group, and many other people were too. Some of them live in 
Miami. Some others now live in Cuba, and they had to be removed 
of that, and they were really active.
    They were trying to create a new system for the black 
people, a new government for the black people. I experienced 
all that while I grew up. They were shot, and taken through 
Social Services. The people in Social Services tried to give 
them a lot of work for them to forget that they were doing 
something against the government, and not to call the attention 
that they were black people trying to do a new government.
    And in any case it just came to my attention because I am 
seeing a lot of African-Americans that are maybe dazzled by the 
Cuban system and politics, about black Cubans, and I have seen 
the black Cubans earn their place in Cuban society by fighting 
many years of war in the 19th century to expel the Spanish 
colonization. I am proud of how somebody in my family was part 
of that army, and it is still in my veins, that spirit. And the 
stories through all of the elderlies, elderlies in my family 
have told me of stories about betrayal and racism that Cuba 
couldn't escape because we are also part of the universe and 
race is part of the universe, the universe or culture we have 
now.
    Anyway, let me go back to the point. I came to talk about 
my personal experience about child labor in Cuba, during the 
days when we were not aware of the many dangers and pressures 
in our young lives. Our teacher and system made us feel that we 
were being part of a party. However, our parents were desperate 
to obtain medical papers, since only a chronic disease could 
stop you from going to the fields.
    There are no written laws. We in Cuba all followed or 
feared something that was everywhere and yet nowhere, like that 
famous, when he was the director, movie called ``The 
Exterminator Angel.'' Paranoia is very deep inside Cubans for 
half a century. The hospitality and warmth of Cuban 
idiosyncrasy has been manipulated against Cubans themselves.
    Our parents tried to protect us the best they can, but the 
system has used the customary network of neighbors to make each 
other's life miserable and unbearable. People spy on you. They 
report if you didn't go to the fields or to a meeting, to the 
Plaza de la Revolucion, etc. Later on this will have 
repercussions in your life as a grownup, when you aspire for a 
career or a job, or which is the biggest privilege, travel 
abroad.
    My neighbor, Julia Joya, now deceased, happened to be part 
of this incidence I lived. Julia ironically deceased due to the 
complication of somebody stepping on her foot at a meeting with 
Castro at the Plaza de la Revolucion. She would follow me 
everywhere for a long period of time. This was after my sister 
and brother abandoned Cuba through Mariel.
    I lived in continuous fear, up to a point that I had to 
confront her. I told her that she knew I wasn't a criminal. She 
saw me growing up and my family was very decent, only that my 
parents never belonged to the CDR, ``Comite de defensa de la 
revolucion,'' Defense Committee of the Revolution, and that was 
a bad spot in your life. Her reply was, ``If the State wants to 
follow you, I follow you.'' I said, ``But you are not the 
State.'' And then things stopped, to be more calm.
    She had to put many people in jail before. Faustino, a 
rebel teenager, was one of them, only because he was black and 
he wouldn't go to school. His mother had a heart attack and 
died because of the incident.
    Education and health in Cuba is a Machiavellian 
manipulation that holds captive Cuban citizens under the name 
of gratefulness. What is Escuela al Campo? It starts at age 11 
to 12, and it doesn't stop until college. You have to go and 
serve for 45 days, work in the fields.
    And the inexperience of teenagers and the lack of proper 
supervision would be the source of several accidents, such as 
death due to falls in unsecured wells, the most common. The 
boys would escape to visit the girls' camp and run in the dark 
for several kilometers, and in Cuba the wells are not properly 
covered so there were many deaths of teenagers running and 
escaping through the fields.
    There is danger on the crops were where we travel in 
trucks. We had to achieve a certain goal of filling boxes of 
potatoes, tomatoes, or in the many harvests they would figure 
out what they wanted us to do. Later on it would be working in 
the cane fields with machetes, when we were to the age of 
college, ``preuniversitario.''
    Our parents would visit us only on Sundays to bring us 
clean clothes, food, supplies, and their love to soften our 
homesickness, but before arriving they had to struggle to get 
several buses in time, waking up in the wee hours of the 
morning.
    I passed out, like many other children, in certain works. 
The sun was very hot, the food was not good, and the health 
conditions were not ideal. It took me a long time to decide to 
do my basis, the first time that I went there. I for sure was 
comparing my sanitary toilet at home with that smelly hole in 
the floor, surrounded by all kinds of bugs. Cold showers were 
the prize of the day.
    Moreover, I developed allergies, and children were sick 
often but many times the teachers wouldn't take us too 
seriously. Moreover, there were cases of pregnancy that was 
kept quiet to the system convenience, quiet. The case I 
witnessed was that of my next door neighbor that was like me, 
14 years old at that time, who had to marry her physics teacher 
from who she was pregnant.
    Many parents tried to get a doctor's dismissal, which is 
the only valid reason to stop their sons from going to the 
fields. Unluckily, this wasn't possible for all.
    The sugar cane cutting, the macheteros voluntarios, we 
would call it obligontario, which is the term for obligatory, 
involuntary. So we created obligonatario.
    When you go to the college, then you go to an even harder 
work, ``trabajo productivo.'' This work happened at any time, 
and the people who plan to leave Cuba are fired from their jobs 
and sent to the sugar cane or coffee fields. I remember my 
mother going crazy with us five minors at home when my father's 
work, they took him to be a machetero, a cane cutter, for 
several months. The money was not coming in time.
    Escuela al Campo became ``Escuela en el Campo,'' so it was 
school in the country fields, a permanent state where work-
study was combined. The idea was to strengthen the spirit of 
the teenager, and also repay the free education that the 
government provides. As you may know, teenagers are not too 
good for work, and I remember that we were ``majaseando,'' like 
being lazy and trying to figure out how to avoid to work in the 
fields. Still, we had to work. At some point we had to work 
because there were supervision in the fields.
    The government created a dismemberment of the family 
nucleus in Cuba soon after Fidel Castro took over. Divide and 
conquer seemed to be the source of power of the Cuban 
Revolution. An example of Operation Peter Pan, where parents 
send their children on long-term flight to another country was 
transforming in.
    Also there were parents that were forced to leave without 
their children. These children were won over by the Revolution. 
They made them ``pioneros por el comunismo,'' pioneers. Thus, 
the children decided not to join their parents in America and 
the government would take them from their parents. They became 
Hijos de la Patria, sons of the fatherland.
    Then from outrageous despoilment of the Patria Potestas, 
parental jurisdiction, I know the case of Anna Maria Barerres, 
my sister's friend, who was always a dysfunctional adult due to 
the trauma she suffered when she realized she was not to see 
her father again.
    Also, during Mariel there were many mothers and fathers 
that were sent against their will to this country, leaving 
behind a mountain of children. I can mention the dichotomy of 
many mothers when the fathers denied signing the child's 
permission to leave the country. They had to choose between 
leaving the children behind or staying.
    Children have been manipulated like anything else in Castro 
government. The image that Cuban Government wants to create is 
totally different from reality. I can only pray that all the 
Cuban children can enjoy a brighter future, like all children 
in the world. And like me, when I look through my little piece 
of sky in the window of my bedroom, they are able to see beyond 
the blue and make their dreams come true. Most important, I 
wish they were able to establish and determine their dreams, at 
least find their lives in their own manner, find them the right 
to self-determination.
    Thank you very much.
    Mr. Smith. Thank you very much, Ms. Torres. We appreciate 
your testimony.
    I will ask our next witness if he would proceed.

    STATEMENT OF DANIEL SHANFIELD, STAFF ATTORNEY, LAWYERS 
  COMMITTEE FOR HUMAN RIGHTS, IN CHARGE OF THE ASYLUM PROGRAM

    Mr. Shanfield. Chairman Smith and Members of the 
Subcommittee, thank you for convening this hearing and for 
inviting us to share our views about this important and complex 
issue. We are deeply appreciative to you for your steadfast 
attention to human rights issues, in particular your concern 
for the plight of refugees, and for your continued efforts to 
highlight these concerns in Congress.
    The Lawyers Committee for Human Rights is a nonprofit, 
nongovernmental organization. A substantial focus of our work 
over the years has been the protection of refugees. The Lawyers 
Committee has represented many hundreds of refugees, including 
children.
    Since the pilgrims first landed almost 400 years ago, the 
United States has served as a refuge for those fleeing 
persecution and oppression. After World War II, when the United 
States and so many other nations failed to protect many 
refugees from Nazi persecution, the United States led the 
effort to establish a structure of universally recognized human 
rights norms, beginning with the Universal Declaration of Human 
Rights.
    Article 14 of the Universal Declaration of Human Rights 
provides that everyone has the right to seek and enjoy asylum 
in other countries from persecution. Building on the 
recognition of this right as universal, the United States then 
worked to establish international standards for the protection 
of refugees. More than 30 years ago, the United States formally 
bound itself to these standards by acceding to the protocol of 
the 1951 Refugee Convention.
    The central obligation undertaken by the United States and 
other state parties to the treaty was to refrain from returning 
any refugee to a place where his life or freedom would be 
threatened. This obligation was codified into U.S. law by the 
1980 Refugee Act, which also set out a framework for the 
independent adjudication, free from political considerations, 
of claims for refugee status.
    Although not everyone who seeks protection is entitled to 
asylum, international legal obligations require states at 
minimum to provide fair and effective procedures to determine 
who is a refugee. The United States has repeatedly reaffirmed 
its commitment to this principle, although recent changes to 
U.S. asylum law, such as expedited removal, place the United 
States out of step with its tradition of fairness and 
compassion toward refugees.
    Fair legal procedures and access to legal remedies serve as 
the foundation for many international legal instruments to 
which the United States is a party, such as the Universal 
Declaration on Human Rights and the International Covenant on 
Civil and Political Rights, as well as our own domestic 
jurisprudence. Moreover, for these rights to be effective, 
adequate procedures must be available to permit their 
enjoyment.
    The Refugee Act of 1980 reflected Congress' concern for 
providing access to a fair procedure by explicitly providing 
that any alien physically present in the United States may 
apply for asylum. This right to seek asylum has subsequently 
been subjected to very limited and statutorily defined 
exceptions, but importantly, Congress has never deprived 
children of the right to seek asylum.
    Like their adult counterparts, child asylum seekers flee 
their homelands to escape war, persecution, and political 
instability. The United Nations High Commissioner for Refugees 
estimates that children make up more than half the world's 
refugee and internally displaced population, accounting for a 
population of 20 million children. The situation is acute. Out 
of this population, an estimated 250,000 of these refugee 
children are separated from their parents. Although only a 
small fraction of this group seeks refuge in the United States, 
the need to ensure adequate protection in our laws for this 
vulnerable group is paramount.
    Unfortunately, the factors that turn children into refugees 
are more prevalent and diverse now than at any time since World 
War II. Where child refugees were once bystanders in adult 
conflicts, this is increasingly not the case. As witnessed in 
China, Kosovo and Sierra Leone, and so many other countries 
around the world, children are the deliberate targets of human 
rights abuses, including infanticide, conscription, ritual 
genital mutilation, slave labor, and sexual servitude.
    As so eloquently described in the excellent article by 
Jacqueline Bhabha and Wendy Young entitled, ``Through A Child's 
Eyes: Protecting the Most Vulnerable Asylum Seekers,'' 
unaccompanied children who must make their way to safety 
without the assistance of their parents are most at risk. I 
would ask that a copy of this article be entered into the 
record of this hearing.
    Mr. Smith. Without objection, Mr. Shanfield, that will be 
made a part of the record.
    Mr. Shanfield. Particularly problematic are cases where 
parents are incapable of protecting their children from 
persecution, or worse, where parents are complicit in that 
persecution. For instance, female genital mutilation is 
generally conducted at the behest of a young girl's parents. In 
a number of traditional societies, girls are targeted as the 
victims of honor killings for opposing their subjugation to 
demeaning social roles. To illustrate, one of our clients was 
held captive in her father's home and regularly beaten just for 
resisting his authority to marry her off against her will.
    Children asylum seekers who have friends or relatives in 
the United States to guide them through our byzantine asylum 
system are surely the fortunate ones. However, many are not so 
lucky, and in the case of an unaccompanied child asylum seeker, 
their protection from persecution demands a vigilant and pro-
active approach.
    Many children are simply unable to articulate their need 
for protection, given their youth, lack of sophistication, and 
unfamiliarity with our culture. Identification of child asylum 
seekers is therefore a key responsibility. Once identified, 
these children must be provided with assistance to effectuate 
their rights to refugee protection.
    Parents' rights are fundamental, but they are not absolute. 
We have seen many instances where parents of child refugees are 
either incapable, because of intense pressure or fear of 
retaliation by their own government, of protecting their young, 
or active participants in their children's persecution. In such 
cases, a parent's opposition to a child's need for protection 
cannot be the last word.
    In contemplating this matter, we must uphold the important 
principle that children are part of the human family and have 
an independent right to protection from harm and the enjoyment 
of fundamental rights. Where the wishes of a parent are at odds 
with the child's need for protection, those wishes may have to 
yield. The Attorney General, and ultimately the courts, must 
ensure that where there is conflict of interest, a child who 
needs protection will receive it.
    I would like to thank this Committee again for the 
opportunity to present the views of the Lawyers Committee. We 
are grateful for your attention to this matter, and look 
forward to continuing to work with you. I would like to thank 
the Committee for your excellent and dedicated work to ensure 
that the United States will continue to serve as a beacon for 
the oppressed, whatever their homeland, and regardless of their 
age.
    [The prepared statement of Mr. Shanfield appears in the 
appendix.]
    Mr. Smith. Thank you very much, Mr. Shanfield.
    I yield to the gentlewoman.
    Ms. McKinney. Thank you, Mr. Chairman.
    Mr. Shanfield, do you have that document with you?
    Mr. Shanfield. I'm sorry. Which document are you referring 
to?
    Ms. McKinney. The one that you asked to be submitted to the 
record.
    Mr. Shanfield. Yes, I do.
    Ms. McKinney. Could you make it available?
    Mr. Shanfield. Shall I bring it up?
    Ms. McKinney. Yes, please. Thank you.
    Mr. Smith. I want to thank our very distinguished panel for 
their excellent testimony, and ask you a couple of questions 
and then yield to my colleagues.
    I understand, Mr. Garcia, you are under very tight time 
constraints. Ms. Fuentes spoke earlier about the farm schools 
or the involuntary, forced labor that young people are required 
to undergo, as the time when children passed into state 
custody. Can you speak to that issue?
    I mean, many of us are very concerned in the United States, 
and it is a global concern, about parental rights and state 
intrusion into those parental rights. It would seem the face 
that Fidel Castro, through the Elian Gonzalez case, has put on 
it is that somehow parents are supreme, rather than subordinate 
to the state.
    And frankly I was, as I stated earlier before we broke for 
those votes, surprised by the Cuban Code of the Child, which we 
have the Spanish version of and a number of the articles 
translated into English. I would, without objection, ask that 
this be made a part of the record. If you could speak to the 
issue of this indoctrination. For example, if Elian were to go 
back, would he be forced to become a Marxist?
    Ms. Fuentes. Are you asking me, Mr. Chairman, or do you 
want me to----
    Mr. Smith. Mr. Garcia has to leave, I understand. But then, 
Ms. Fuentes, I would like to ask you that question as well.
    Mr. Garcia [speaking through an interpreter]. If Elian 
returns to Cuba, he will be destined to live a life almost in 
captivity. In other words, he will be obligated to comply. It 
is possible that the slogan of the Pioneers might be changed. 
In the present it is ``Pioneers for Communism, we vow to be 
like Che.'' Maybe now the slogan will become ``Pioneers for 
Communism, we vow to be like Elian.''
    Elian will not see his old neighborhood again. Elian will 
be protected from the rest of the community in an exclusive 
neighborhood in Miramar, in the Miramar neighborhood, a 
neighborhood in Havana that because of its strategic location 
is under constant surveillance by Cuban Intelligence. That is 
where Elian will live with his father.
    Ms. Fuentes. In other words, the press--the foreign press 
is what he means, foreign press--will not have access to Elian 
ever again, in his opinion.
    Mr. Garcia. Elian will be made a national--Elian's father 
will be made a national hero and maybe will be moved into a 
seat in the National Assembly. Because, in my opinion, Elian's 
father's lack of courage or perceived lack of courage has 
provided Castro with a victory, a political victory against the 
United States. Which in the ultimate analysis is what Castro is 
concerned about, is interested in, a political victory, and not 
necessarily the welfare of Elian or of any other Cuban child.
    If Castro were concerned about the welfare and justice for 
children, he would have made sure that the 10 bodies, the 
children's bodies that are in the ocean from the ``13th of 
March'' tugboat capsizing, sinking, would have been properly 
rescued. If Castro were interested in the welfare of children, 
he would have made sure that a judicial process was started to 
bring to justice those responsible for the massacre. However, 
the officers responsible for this mass assassination walk the 
streets of Havana freely, with absolutely no punishment.
    Mr. Smith. Ms. Fuentes, you wanted to respond to that?
    Ms. Fuentes. Both the Cuban family, the Children and Youth 
Code of Cuba, the Constitution of Cuba, call for the obligatory 
formation and the responsibility of everyone involved with the 
upbringing of a child to work toward the formation, the shaping 
of the Communist--and it says so, I don't have it in front of 
me but it is almost as if I were quoting it--the Communist 
formation of the personality and of the individual. Anyone who 
comes in contact with a child is obligated, whether it be 
parents, teachers, counselors, recreation coordinators, anyone 
who comes in contact with that child's educational process, 
socialization process, is obligated under Cuban law to make of 
that child, be it a girl or a boy, a good Communist.
    So the answer to the question, ``Will Elian be forced to be 
a good Communist, or a Communist, if he is returned to Cuba,'' 
the answer is, in violation of every single assured right of 
the individual, according to the Declaration of Human Rights, 
yes, that child will be forced to become a Communist.
    It is just not me saying it. These are the legal 
instruments of the society to which Elian will be returned. 
There are no options. Being a Communist is not an option, being 
a Pioneer is not an option, in a society where if a child or 
the parents of a child withhold his participation in the 
Pioneers organization, that child automatically is stigmatized 
as someone coming from a family ideologically deviant, and this 
is exactly the terminology that is used, ideological deviance.
    Mr. Smith. Dr. Dominguez, you mentioned that this would be 
punishable under law. Can you tell us what would be meted out 
to an individual, a young person or parents, who stood up to 
being forced to become a Communist?
    Ms. Dominguez. Well, initially it depends on the age of 
when this will occur. Obviously, there are many things that 
could happen to a child, one of them being the prevention of 
having the ability to enroll in higher education, in choosing 
the career that he so desires, he or she so desires. So that 
would be the most obvious one, if the child should elect to go 
into a higher education field.
    It could be many other subtle ways. It could be harassing 
in every which way that they could. They do it all the time to 
people with dissenting opinions. And in fact under the Penal 
Code it is also endorsed and envisioned. The Constitution 
itself calls for it. Article 62 very clearly states that is 
punishable under the law. It doesn't go into the detail of what 
the punishment is under the Constitution, but they have a Penal 
Code and they have many other ways of harassing and actually 
sanctioning the people who do not agree with their system.
    Mr. Smith. Let me ask, Ms. Fuentes, you mentioned that the 
state, when it puts out these rousing numbers, which are very 
often repeated by UNICEF and others, that indicate that infant 
mortality and child survival are relatively high for Cuba, and 
yet in very few studies do I see a point that you made, namely 
that they terminate potentially troublesome children, I think 
is the way you put it.
    We had a 1998 joint staff report by the Senate Foreign 
Relations Committee and the House International Relations 
Committee, which noted that the Cuban regime coerces abortions 
for so-called ``social risk pregnancies.'' According to the 
report, the ``social risk category'' is extremely broad and 
encompasses women over 35, girls under 20, women who have had 
three children, women from poor or rural families, and women 
with genetically determined illnesses, including things such as 
diabetes and hypertension.
    You know, I have heard this argument for so long about how 
great the medical care is in Cuba, but it ignores the rest of 
the picture. I mean, China can also show a very low infant 
mortality rate. Several years ago they initiated a draconian 
eugenic policy where handicapped children are singled out, 
girls, too, but handicapped children are singled out and 
killed, so you don't have handicapped kids because they are 
being killed by abortion.
    And now we see, and we have seen for some time now, the 
doctors in Cuba who bring this practice to light, and this is 
noted in our Country Report on Human Rights Practices, are 
thrown into jail, are beaten. So the whistleblowers find 
themselves persecuted when they speak out for women who are 
being coerced and for children, and handicapped kids. Our 
country made a gargantuan step in the right direction when we 
passed the Americans with Disabilities Act, which finally 
through law enfranchised handicapped individuals. Now, we see 
in Cuba, and we certainly see it in China as well, the 
handicapped people are selectively left out of humanity.
    If you could speak to that, because you did mention it in 
your testimony.
    Ms. Fuentes. Mr. Chairman, that, precisely that 
enforcement, that forced coercion into abortion of anything 
that could spell trouble at the time of childbirth, is the 
reason why Dr. Ilda Molina--who is Cuba's and probably Latin 
America's most prominent neurosurgeon, founder of the Institute 
for Neurological Studies in Cuba, a member, by the way, a 
former member of the Cuban National Assembly, one of Fidel 
Castro's pride and joy, a woman who is now in her early 
forties, so we could say a product of the educational system of 
the Revolution--that is precisely the reason why she resigned 
as a Congresswoman, as an assemblywoman, because the connection 
between the coercion into abortion and the biomedical 
production of placenta products, in other words, placentas from 
those abortions as raw material, so to speak, I mean for lack 
of a better term, for all kinds of pharmaceutical products and 
beauty products, especially the cosmetic products, forced her 
to, I mean in conscience, to resign her position.
    And in resigning her position as an assemblywoman, as a 
member of the Cuban National Assembly, she was ousted from her 
position as director of the Institute of Neurological Studies, 
and not only that, but she is in effect one of those adults who 
is virtually kidnapped by the Cuban Government. The Cuban 
Government will not allow her to leave the country, not even 
for a visit with her son and grandchildren who live in 
Argentina, precisely because, according to the government, her 
medical information, her scientific knowledge, is an issue of 
national security for Cuba.
    So there is ample evidence. There are many doctors. The day 
that the Committee decides or sees it fit, necessary to conduct 
some hearings on the medical, on the real state of medicine in 
Cuba, and the violations of human rights that are really 
rampant in the medical field, anyone could parade through here 
dozens and dozens and dozens of doctors, of Cuban researchers 
and physicians who have even served jail terms for, as you call 
it, whistle-blowing on these abuses.
    So there is ample evidence, with again reams of paper, with 
that. If I may, Mr. Chairman, I would like to suggest that 
perhaps this panel can introduce into the record at least the 
sections of the Cuban Penal Code, of the Constitution, the 
Family and Children's Code, that are germane to what we have 
discussed here today, so that the Committee and other Members 
of Congress can avail themselves from the record.
    Mr. Smith. Ms. Fuentes, without objection, we will do that, 
and I think it is extremely important. This is the beginning of 
a learning curve. Many of us who thought that we knew something 
about Cuba, have held hearings before. I actually tried to get 
into Cuba, and was not allowed. But let me say that we will 
make every effort to get the information that is coming out in 
this hearing and in subsequent hearings out.
    I mean, I find it outrageous that, in a poll-parroting way, 
people will repeat these tremendous statistics and state--with 
all due respect, Reverend Walker--that they never saw anybody 
that was sick in Cuba. Well, at least the newly borns and the 
young people are being aborted.
    Reverend Walker, I do have a question for you. You 
mentioned, and you cited my favorite scripture, Matthew 25: 
``When I was hungry, you gave me to eat; thirsty, you gave me 
to drink,'' and you might recall our Lord said, ``When I was in 
prison, you visited me.'' You also talked about the need for 
reconciliation, which I couldn't agree more with, but part of 
my problem is, reconciliation without justice is accommodation, 
it is not reconciliation.
    And the concern that I have is, in Cuba you have a 
dictatorship that continues--like those of Lenin, Nicolae 
Ceaucescu, Mao Tse-tung, or even right now in China, Jiang 
Zemin--to commit violations each and every day. The Country 
Reports on Human Rights Practices cites 350 to 400 political 
prisoners, men and women. Everybody at this table potentially 
could be thrown into prison if this hearing were being held in 
Havana, every one. I would be, Cynthia would be, all of us 
would run the risk, and certainly based on what Ms. Fuentes and 
others have said, you would be going. You would be getting a 
very long jail sentence for speaking so courageously on behalf 
of the oppressed.
    So reconciliation is important, but without justice, it is 
one-sided. I mean, whether it be on El Salvador or South 
Africa, truth commissions talk about reconciliation, looking 
back; but they also demand that, going forward, that there be 
human rights observance. Otherwise, it is a sham.
    And, you know, I am not sure if you have read the Country 
Reports on Human Rights Practices, but you should. I mean, do 
you agree with its contents, where it says that the human 
rights record is poor, that the regime systematically violates 
civil and political rights of its citizens, the authorities 
harass, threaten, arbitrarily arrest, detain, imprison, and 
defame human rights advocates and members of independent 
professional associations, including journalists, economists, 
doctors and lawyers, often with the goal of coercing them into 
leaving the country? This is the State Department speaking. 
They also point out that the government infringes on citizens' 
privacy rights, denying freedom of speech, press, assembly and 
association.
    And my point is, do you agree with that assessment from the 
State Department? And, second, again pursuant to Matthew 25, 
have you yourself gone in and visited with these political 
prisoners who have been subjected to torture and all kinds of 
horrific mistreatment?
    Rev. Walker. Mr. Chairman, since you have asked me about 
five or six questions, it will take a little time to answer 
them all.
    On the matter of reconciliation and, in your view, the 
necessity to hold out as a precondition of some discussions 
toward understanding, mutual understanding and reconciliation, 
justice, is certainly not biblical in the sense that if we have 
a standard that is our standard, and we indicate that I would 
not discuss with you how we can reach understanding, how we can 
resolve our differences, unless you agree with my standard of 
justice, there is no basis for communication.
    Mr. Smith. Could you yield on that one point, very briefly?
    Rev. Walker. Yes.
    Mr. Smith. The Cuban Government, Fidel Castro in 
particular, has agreed to the myriad of human rights documents, 
starting with the Universal Declaration of Human Rights and a 
host of other documents. The problem has been no followup, no 
adherence to those documents. And this isn't just a U.S. 
Congressman or a U.S. Government official speaking. I mean, the 
U.N. sent delegates there some years ago. Those who came 
forward and spoke out were retaliated against, so severe is the 
repression. So when you talk reconciliation, he has got all the 
guns.
    Rev. Walker. Let me complete my statement, if you don't 
mind. What I am suggesting is that there must be mutual 
respect, and there must be willingness to sit down and discuss 
together mutually--respecting the sovereignty, each side 
respecting the sovereignty of another--differences, charges, 
problems that exist. And to my understanding, that has not 
happened.
    I think, second, that your matter of visiting those in 
prison, yes, I have, and I have talked with ex-prisoners, and I 
think it is important for you to know that I have been able to 
do some reconciling, to be an intermediary in some cases. I 
think it is also important for you to know that while we may 
not like it, or while the kind of, I think to a large extent 
wishful thinking and this sort of psychological obsession with 
Fidel Castro which is reflected here, bars our clarity, I think 
the fact is----
    Mr. Smith. With all due respect, you are suggesting that I 
am psychologically unbalanced. But I have been reading from the 
State Department's very, very well considered and well 
documented Country Reports on Human Rights Practices. The fact 
that there is one man at the helm of that repression doesn't 
make me or anyone else who singles him out obsessed--it is the 
same way that we would single out Lenin or Stalin or anybody 
else who was at the head of a repressive regime.
    Rev. Walker. My view, and it is consistent, although from a 
different perspective, with that which has been said by at 
least two Members of the House, of the Committee is that we 
ought to be careful about our language. Some of our language 
has suggested that we are not focusing on this basic right of a 
parent to be with his child. We are not basically talking about 
what is in the interest of a child. We have politicized the 
issue, and there are those who are attempting to make it an 
issue of what we think about Fidel Castro, what we think about 
the Cuban Government.
    My point is that to a certain extent those views are 
irrelevant. Let me give you an example out of my own personal 
experience. I am old enough that I grew up during the 
Depression. There were those for whom my parents worked, who 
wanted to take me and raise me. These were very well-heeled 
economically people, you know, an officer in Exxon Corporation. 
My parents made the very clear decision that they had the right 
and the responsibility to raise their children. They were 
incensed that their rich friends for whom they worked would 
even think that they would give up the custody of their 
children.
    We grew up in poverty. We grew up learning the values that 
I talked about today, the values that have shaped me. I assure 
you that there were many, many efforts in my own education to 
shape my personality, to teach me to be a capitalist, to teach 
me to favor free market enterprise, etcetera. That is the 
function of any government.
    I think it would be irresponsible of the Cuban Government 
to claim to be, as it does in its Constitution, a socialist 
state, and not teach what that means to its people. We should 
not deny that to Cuba. We should allow the parents, who may not 
have as much as the distant relatives here in the United States 
would have, to raise in this case his, his own child. That is 
the issue. The issue for me is the welfare of this child in the 
custody of his father, not what Fidel Castro thinks, not all of 
these issues which need to be addressed in due course and in 
proper context.
    This was not what I was invited to discuss, and I think 
that we have reached far beyond, in my view, the bounds of the 
specific description of the subject of this hearing. We are now 
engaging in a certain degree of prophesy. For example, how can 
we sit here and predict that young Elian will be forced to be a 
Marxist? I think this is sort of outlandish and irresponsible. 
I think there are those who think that, and they may speak 
their view. But to declare categorically, this is what is going 
to happen, I suggest is not responsible discourse, and I feel 
that very seriously.
    I know many people in Cuba who are not Marxists, who are 
critical of Marxism, at least some aspects of it, and who are 
patriotic in their country, who are faithful in their family 
responsibilities, who are good, upstanding, outstanding 
citizens. And I think that we ought to recognize that people 
can be of a different ideological or religious, political 
persuasion, and be quality human beings, can be people of 
respect and people of integrity, and that we should be able 
to----
    Mr. Smith. You have sparked some comments from the other 
panelists, so----
    Rev. Walker [continuing]. And that we should be able to 
communicate with them and resolve any differences.
    Mr. Smith. Doctor.
    Ms. Dominguez. I wanted to respond to that because it is in 
the Cuban Constitution under Article 39, and I read it before 
and I need to go back to it, because it is not me who is saying 
it. It is their own Cuban Constitution.
    Article 5 starts saying that the Communist Party of Cuba, 
described as Marxist-Leninist, is the organized vanguard of the 
Cuban nation and is the superior leading force of the society 
and the State organizes everything that goes on. And then in 
Article 39 it goes into how the State bases its educational and 
cultural policies on Marxist ideology, and it promotes the 
patriotic education and Communist training for the new 
generations.
    It is right there in the Cuban Constitution. It addresses 
that very topic and that very issue.
    Mr. Smith. Ms. Fuentes, or Mr. Cohen?
    Ms. Fuentes. I will translate for him, and then I would 
like to make a comment, if I may.
    Mr. Cohen [speaking through an interpreter]. It is very 
important to know that anyone who intends to study, who wants 
to study in Cuba, for example to finish a university career, 
first has to have a political file approved by the school or 
the educational institution. In the case of my daughter, for 
instance, who was expelled from school not because she was 
saying what she thought, speaking her mind, but because of what 
her father thinks, and because in order to free her, I tried to 
get a visa, automatically that disqualifies her to continue her 
higher education.
    I studied at the university. I graduated with a degree in 
mathematics. What does mathematics have to do with communism? 
During the 5 years I had to pass a subject matter titled 
``Scientific Communism.'' If you don't pass that subject 
matter, you cannot become a mathematician or a physicist or an 
engineer----
    Ms. Torres. Or an artist.
    Mr. Cohen [continuing]. Or Ms. Torres is adding on, an 
artist or anything else.
    Reverend Walker was saying before that he knows people in 
Cuba who are not Communists. Probably that is what they tell 
him, because that is how the political system works. I was a 
witness to how the system worked. The person that is addressing 
you and telling you this is someone who was there and was a 
witness of how this system works. That is why I am here. That 
is why I broke with the government. One of the things that I 
hated most was how honest people were utilized, people who 
lived in freedom like the Reverend.
    There were three categories in the Intelligence Service. 
One is to be an agent. The agent is the one that is placed 
outside in a foreign country and provides information to Cuba 
about the activities in that country.
    The second person, the second level is a confidence person, 
but for that there is a category that is referred to as a 
worthwhile contact. Those are people who come to Cuba. They are 
studied, they are actually studied, and they get them to 
collaborate in some way with the government, but they have no 
secret information. They simply become like spokespersons of 
the government. The worthwhile contact people know that they 
are, in effect, providing a service to the Cuban Government.
    There is a third category, which is the friendly relation, 
the friendly contact. This person never knows that he is, in 
effect, working for the government. They are used without their 
knowledge, really. They are used. They show them the apparent 
successes of the Revolution. They are taken to hospitals, they 
are taken to biotechnology centers. Anybody would be impressed, 
because you never really get to know the other truth.
    That person gets a file opened. A file is opened for that 
person in Cuba. If tomorrow any one of you goes to Cuba, you 
will have a file opened. It doesn't matter who you are. Every 
single person that goes to Cuba has a file. You can't possibly 
know that reality, but I am a witness of that reality.
    This is a time-consuming activity, but it is done with 
plenty of time. The person is studied, their motivations, their 
weaknesses, their resentments, if they are black, if they are 
white, and the system grinds that information into usable 
information. I am a witness to that, which is why I broke with 
the regime, because there are a lot of honest people, 
illustrious people who are very good people, who live in a 
world of disinformation, and that Castro actually mocks them. 
Believe me, that is the truth, and I am a witness of that. 
Thank you.
    Mr. Smith. I would like to yield to Cynthia McKinney, and 
if time permits, we would like to have a second round of 
questions, but if anybody does have to leave, I certainly 
understand it. It is getting very late.
    Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. I want to, I guess, 
thank you for calling this hearing, because I have to say that 
it has been educational for me as well, and I believe that in 
due course we will have more hearings and we will explore the 
issue of Cuba even more.
    I do want to hear from Mr. Cohen a little more, but I want 
to yield to my colleague so that she can go ahead of me.
    Ms. Lee. Thank you, and I would like to thank my colleague 
for yielding, and also would like to thank the Chair for 
allowing me to sit in on this Subcommittee hearing. I serve on 
the International Relations Committee Subcommittee on Africa, 
but this is an issue that is very important to me. Human rights 
of children anywhere in the world are critical in terms of just 
the future of the world.
    Oftentimes when I travel, and now I am not talking about to 
Cuba but I am talking about throughout the world, I am asked as 
an African American with regard to what is going on with our 
children here in America in terms of the millions of children 
living in poverty, in terms of the millions of children who are 
homeless, and the disproportionate number of young African 
American men in jail for nonviolent offenses. So other 
countries and other leaders in countries ask me very similar 
questions that we are asking today, and so human rights, of 
course, for children anywhere in the world are very important.
    Let me say that I have visited Cuba on several occasions. I 
wanted to form my own opinions about the realities of Cuba. 
Unfortunately, this 40-year embargo has prevented American 
citizens from freely traveling, to be able to see and to form 
their own opinions. We have a right to travel, and we have not 
been able as American citizens to have that right to travel to 
Cuba for a variety of reasons, unless we jump through a lot of 
hoops.
    So I go so I can come back and try to engage in objective 
discussion with regard to United States-Cuba policy. And I 
think this dialogue must take place, so I am pleased that this 
hearing is taking place today, because this gets us at least to 
the dialogue stage.
    Now, it is no secret--and one of the reasons I came over 
here, Mr. Chairman, is I was sitting in my office watching the 
videotape of Elian, and I said I am going to have to come over 
to this hearing because I don't know what to do. Quite frankly, 
I have to make this statement.
    It is no secret that I have supported the return of Elian 
to his father. I think that that is the only right thing to do, 
that parental custody, the bond between a parent and child, 
supersedes any kind of issue with regard to any government in 
the world. And so I had the opportunity to visit Mr. Gonzalez 
in Cuba and here in Maryland, and I have no reason to believe 
that he is not a fit parent. He loves his child, and he should 
be returned.
    Today when I saw this videotape, and I wanted to ask 
members of the panel what they thought about this, because to 
me this videotape has crossed the line, Mr. Chairman. This 
videotape, when I saw young Elian on this tape, it reminded me 
of oftentimes when we see members of our armed services and 
U.S. citizens captured abroad and then put on television and 
asked to say questions, and then the tapes are put out to the 
media. We as Americans feel incensed that that kind of 
propaganda can go out, and here we have a 6-year-old child who 
was on television earlier. It just brought back memories of 
times when we have to deal with this as American people.
    I wanted to see if the panel, any of you felt that that 
crossed the line at all in terms of Elian Gonzalez and his 
human rights, or if that is something that we think is the 
right thing to do to convince the American people that he 
should stay in America? I am curious about that.
    Mr. Smith. First of all, let me respond, since you are 
asking the panel, the witnesses. I happen to believe that this 
is unlike the POWs. As a matter of fact, I was on the POW-MIA 
Task Force for Vietnam, and made trips over there, and I 
remember going through the footage. We were originally talking 
about live sightings and then unfortunately it became just a 
matter of trying to repatriate remains.
    But in looking at all of those old clippings, there were 
men under duress, who were tortured day in and day out. Witness 
Jeremiah Denton, Sam Johnson, both of whom have written books, 
and many, many others who were being coerced and tortured if 
they didn't say exactly what they were told to say--matter of 
fact, Jeremiah Denton, while he was giving his testimony, 
false, about how great things were, was actually blinking 
``torture'' in Morse code. He had the presence of mind to do 
that during that horrific ordeal.
    I have met many, many people who have lived in captivity, 
such as Armando Valladares, one of the greatest leaders of 
democracy, who was actually Reagan's Ambassador to Geneva, the 
Geneva Convention on Human Rights. I have read his book, 
``Against All Hope,'' and then talked to him extensively about 
the torture that he had to endure, day in and day out, in 
Castro's prisons. That may be putting a name on it. They are 
Castro's prisons, like it or not, just like they were Stalin's 
gulags, and then they became Khrushchev's and other people's in 
the former Soviet Union.
    Here we have a young child who has bonded very closely to a 
young lady, and I have met with this young lady, the cousin. I 
have met with other members of the family. He seems to love her 
and has substituted the love that he loved so deeply for his 
own mother, for this other caregiver, this surrogate mother, 
call her whatever you would like, Marisleysis. And you have a 
situation where the family deeply loves this child, and they 
put out a video. I don't think that crosses the line.
    And to make the comparison to men in combat or any other 
prison-like situation where they have been tortured, goes over 
the line, I say with all due respect to my friend. Because I 
watched that video this morning, and it comported with 
everything else that has been said. I happen to argue, and I 
argued again this morning when we opened up this hearing, I 
would hope that a court of competence would look at the best 
interests of the child.
    And we have seen, while Reverend Walker would disagree that 
we can't have prophetic views whether or not he will become a 
Marxist, you know, past is prologue. The clear, unmistakable 
record of the Communist dictatorship in Cuba, and there are 
supporting documents, witnesses to that repression, year in and 
year out, have come forward to assert that in that system of 
education there will be a very aggressive attempt to mold this 
individual in a Marxist-Leninist perspective. That is just 
based on all of the documentation.
    Ms. Lee. Would the Chairman yield?
    Mr. Smith. Let me just conclude. So I happen to think that, 
whether it was right or wrong, that was up to the family, but 
it certainly, absolutely does not compare in any way to men who 
have been coerced under pain of being kicked when they return 
to their jail cells in Vietnam, or in Iraq when our fliers were 
paraded by Saddam Hussein, absolutely not.
    Ms. Lee. Would the Chairman yield?
    Mr. Smith. I will be happy to yield.
    Ms. Lee. Mr. Chairman, no, I think you made the point. What 
my point is, is given what you just said, is this an 
appropriate mechanism or tactic to use----
    Mr. Smith. Well, as I said, I think it is appropriate, and 
I thank the gentlelady for yielding. I also know the Cuban 
Government was very outraged when a major network personality 
interviewed Elian. What is being left out of this, in my view, 
is best interests of the child. We will shortly vote on The 
Hague Convention on Adoption, and peppered throughout that 
document is that phrase, ``best interests of the child.'' And 
maybe it is to return with his father. I would hope that his 
father, if given the opportunity, could make a case for staying 
here.
    But we are talking about a situation where we have not 
heard at all. I am learning things myself today, and I have 
been following Cuba for years, about this code that is forced 
upon young children. Now, we would never settle for that. And I 
think the more time we have as this goes forward, I will make a 
major case on the floor about this robbing of parents of their 
rights, including Elian's dad.
    You know, when his child, Elian, goes, if he does go back 
to Cuba, when he is now handed off for the final molding by the 
government, where are we going to be? You know, we will have 
lost that child. Maybe he will come back. Maybe he will resist 
it. People do resist it. But he will be molded. And I think we 
have got to think of his future. That is not prophetic. That is 
based on all of the available evidence that reasonable men and 
women can possibly have.
    Ms. McKinney. Mr. Chairman? Mr. Chairman, would you just 
yield?
    Mr. Smith. Yes.
    Ms. McKinney. Is it not the case that Elian is being molded 
now? I have got a report here that says that he fell in love 
with chocolate milk, and when his relatives give him chocolate 
milk, they tell him Fidel Castro won't let his grandma make 
that for him in Cuba. Is he not being molded now? And could 
that have some bearing on----
    Mr. Smith. Let me just say, since----
    Ms. McKinney [continuing]. The content of that video? I 
have not seen the videotape, so I don't know it, but it 
certainly appears to me that there is some molding going on 
right here.
    Mr. Smith. Yes, Mr. Diaz-Balart.
    Mr. Diaz-Balart. I know we have a vote, and I want to first 
thank you, Mr. Chairman, again for this opportunity, and I just 
want to make sure that I have this opportunity to thank all the 
panel. Ileana, I know you are leaving, thank you. Thank you.
    And I have felt very proud of all the Cuban and Cuban-
American members of the panel, and you, sir, from the Lawyers 
Committee, for standing up for children's rights. Children have 
rights. They have a right to seek political asylum, and it is 
in the regs, and I have read the regs. Any alien means any 
person, including a child, and I am glad that you all picked up 
on that.
    I just want to say this. I have had a chance to meet Elian. 
Elian is a human being, and he is a brilliant 6-year-old. The 
fact that people may be bothered because he likes freedom, he 
likes to be in the United States and he doesn't like to go back 
to oppression, is no excuse for saying that he is not speaking 
the truth when he tells Sister Jean, changes her mind; when he 
tells Diane Sawyer, changes her mind; when he tells a 
psychiatrist that Diane Sawyer brought, changes his mind; and 
now he tells the world--I haven't seen that video--but 
everybody who talks to him, he knows apparently, since this 
administration is not following its own precedents and 
procedure, that he has got to act as his own lawyer, and that 
is the sad case.
    That is the reality of Elian Gonzalez. So he doesn't want 
to go back to oppression. He is 6 years old, and he is 
convinced of that. And I remember when I was 6 years old, I 
knew what was going on in Cuba, and I wouldn't have wanted to 
go back to oppression when I was 6 years old.
    And I just want to ask one question of Mr. Cohen, if I may, 
if I can ask you a question.
    Ms. Fuentes. I have got to go.
    Mr. Diaz-Balart. Do you really believe, do you believe that 
after Elian fades as a human interest story, do you think that 
Castro will take the risk of letting Elian and his father 
exist? (Repeated in Spanish.)
    Mr. Cohen. Never. (Remarks in Spanish.)
    Rev. Walker. May we have a translation? Somebody?
    Ms. Dominguez. I could do it.
    Mr. Cohen. You better, because I don't want to make any 
mistake in this.
    Mr. Diaz-Balart. Dr. Dominguez will translate.
    Mr. Cohen. Who, you?
    Ms. Dominguez. I will.
    Mr. Cohen. OK. Anybody. [Speaking through an interpreter.] 
Here is the reality. Where is Rowina? Where is Aldana?
    [Ms. Fuentes resumes as the interpreter.] The answer is no. 
We know how the system works. And if you want to know what has 
happened in the past, don't look at this humble family. You can 
look at the example of the best and most prominent government 
officials. The most recent one is Rowina, who was the Foreign 
Minister, a public figure who had traveled the entire world, 
with contacts in every foreign office in the world. The 
question is, has anyone seen Rowina again? Has any journalist, 
has any foreign journalist been able to interview Mr. Rowina 
again? Where is Mr. Rowina?
    But before Rowina there was Mr. Aldana, and all the 
previous VIPs that Fidel has vanished. So you are really able 
to answer this question on your own. Would Castro allow this 
child, in another 2 years, or the grandmothers, or his father, 
to stand before the foreign press and say, ``Well, perhaps we 
made a mistake.'' Things are already happening. Elian's father 
can't even get together with his own family. The grandmothers 
were not allowed to meet with their own family. And if I wanted 
to go to Bethesda now and speak to Elian's father, to ask him 
to intercede for my own family, you could witness if you came 
with me that I would not be allowed to do that either, because 
it is a risk that Fidel Castro will not take. Thank you.
    Mr. Diaz-Balart [presiding]. I fully agree with you, and I 
think that anyone who understands the reality of Cuba would 
agree with you, and that is why it is so monstrous to see that 
they are turning this child back to what is inevitably, 
inevitably a situation where, after he ceases to be a human 
interest story, after he can perhaps be visited at that mansion 
that Mr. Garcia talked about before, that he will probably be 
placed in, after that passes, Castro will simply not take the 
risk that 2 years from now or 3 years from now, any member of 
that family can show up and say things were different to as 
they were being portrayed by Castro and the Clinton 
administration. So that shows how monstrous that situation is.
    I want to also thank, in addition to all the panelists, 
Neri Torres----
    Ms. Torres. Thank you.
    Mr. Diaz-Balart [continuing]. For pointing out the truth 
about Cuba. The history of your family, by the way, people of 
color in the history of Cuba have had a disproportionate, had a 
disproportionate, extraordinarily disproportionate role in the 
liberation of Cuba.
    Ms. Torres. Cuba is always being outstanding, we are in the 
right to be part of the country, and----
    Mr. Diaz-Balart. Not only that, not only the right to be 
part of the----
    Ms. Torres [continuing]. Of everything that happens in the 
country.
    Mr. Diaz-Balart [continuing]. But that, as I said before, 
the great source of strength that Castro had from the beginning 
was racism. He was always viewed as----
    Ms. Torres. The opponent of Batista, who was a colored man.
    Mr. Diaz-Balart. And remember that there was the phrase 
(Spanish phrase). That is just an aside.
    Ms. Torres. Well, they wanted the devil to come, and they 
have it.
    Mr. Diaz-Balart. But what is interesting, what is 
interesting, how interesting it is that----
    Ms. Torres. Well, let me tell you something----
    Mr. Diaz-Balart [continuing]. In the context, in the 
context of Cuban history----
    Rev. Walker. Do we deserve a translation or not? Please.
    Mr. Diaz-Balart. What language am I speaking in?
    Rev. Walker. Can someone translate? You spoke Spanish which 
was not translated.
    Ms. Fuentes. (Spanish phrase) Meaning, that was the popular 
word out, let the black----
    Mr. Diaz-Balart. The rich bourgeoisie----
    Ms. Fuentes. For the rich class, mostly, ``Let the black 
man get out of power,'' Batista, who was a black, a mulatto, 
``Let the black man go, even if what comes after is chaos.'' 
And that is very true.
    Ms. Torres. Can I point out something? During Castro, we 
always live in fear, that they tell us not to go to America, 
``No, don't travel to America because the KKK is going to take 
you, the dogs are there, black is treated like hell,'' and it 
has always been a very hard issue for black people to leave 
Cuba.
    First of all, it was the economical lack of power for 
Cubans, because first in the 1950's who left the country were 
the white people who were in power, because they were the rich 
people. Then the black people had to stay, and when finally we 
decided to leave, it was too late and people were feared that 
there was something happening here with the black people. So it 
wasn't until the 1980's that black people took conscious that 
we were able to leave too, because we had even the right to be 
against the government too. I mean, it is not that we have to 
bow to everything that happens in the country.
    Mr. Diaz-Balart. Mr. Chairman, I have to leave. I want to 
again thank you, Neri, thank all of the panelists. I know Mr. 
Walker is leaving. I wanted to ask you one question. You said 
you visited political prisoners. Can you give us some names?
    Rev. Walker. I have an appointment and I am running late, 
but I would be glad to talk to you anytime.
    Mr. Diaz-Balart. Well, if you could just provide some names 
of political prisoners you visited, it would be very 
enlightening.
    I think his exit is most enlightening, at this point.
    Thank you, Mr. Chairman, and thank you for pointing out so 
many of the unfortunate realities of today's Cuba and what 
would face Elian if the Clinton administration gets its way. 
Thank you.
    Mr. Smith [presiding]. Thank you, Mr. Diaz-Balart.
    Let me ask Mr. Cohen, I understand that you went to the 
National Council of Churches to ask that they intervene on your 
family's behalf. Can you tell us about this?
    Mr. Cohen [speaking through an interpreter]. My family has 
gone to all the government agencies and departments, including 
all the religious institutions in Cuba, all the religious 
denominations, and among the groups that my family went to 
visit was the National Council of Churches chapter in Cuba.
    I personally sent a fax letter to Ms. Campbell, to Reverend 
Campbell. My family also sent the information directly to the 
National Council of Churches office in Havana, in Cuba. I have 
yet to receive an answer from the U.S. office of the National 
Council of Churches. My wife was called in Cuba, was called to 
Oto Marachal's office, from the National Council of Churches in 
Cuba, but basically the message was, ``We can only do what 
Fidel Castro allows us to do.''
    That is exactly what happened with the Jewish community. I 
am of Jewish origin. My family approached Dr. Jose Miller, who 
is the president of the Jewish Congregation in Cuba, who made--
he participated in one of those open forums in favor of the 
return of Elian to Cuba. Miller hasn't even called my family. 
What we have realized is that all these institutions in Cuba 
can only do what Fidel Castro allows them to do.
    That is the sad reality of my family. Thank you.
    Mr. Smith. Thank you very much, Mr. Cohen.
    I would like to yield to our chief counsel and staff 
director, Grover Joseph Rees.
    Mr. Rees. Mr. Shanfield, I take it from the Lawyers 
Committee testimony that you do recognize that where there is 
an apparent conflict or the possibility of a conflict, that the 
child's interest isn't exactly the same as the parent's, then 
some other person should be allowed to file an asylum 
application for the child and there should be some kind of a 
proceeding to determine whether it is appropriate for that to 
go forward.
    Now, what do you say to the argument that has been made 
here earlier, that if you allow somebody other than the 
parent--where there is a parent living, even if that parent is 
in the country that it is alleged will cause the persecution of 
the child--that if you allow other people to file asylum 
applications, every child who happens to be in the United 
States, the child of an ambassador from a terrible country, or 
rather a country with a terrible government, or some visitor, 
that we would simply have lots and lots of children in this 
situation who would not ever be able to be with their parents 
after that? How would you limit this in order to make sure that 
wasn't what was going on?
    Mr. Shanfield. Well, what is at stake here is that every 
child should have access to a fair adjudication of an asylum 
claim; that any child, with support or without support, has an 
opportunity to receive protection from the United States.
    It is difficult to speak to the specifics of this 
circumstance, but what has happened in this case seems to run 
contrary to permitting access to children. What we have at 
stake here is a decision by the Attorney General, supported by 
the District Court, where the Attorney General has been 
basically granted unfettered discretion to determine what ``any 
alien'' means. If the Attorney General can say that Elian 
Gonzalez does not fall under the rubric of ``any alien,'' I am 
uncomfortable about what is going to happen to future children 
where there may be conflict between that child, a parent or a 
guardian.
    Mr. Smith. Ms. McKinney.
    Ms. McKinney. Sure. I don't know, Mr. Chairman, if you 
asked the question about whether the U.S. Government had helped 
Mr. Cohen with his particular situation, so why don't we start 
off with that?
    Ms. Fuentes. Is that your question?
    Ms. McKinney. Yes.
    Mr. Cohen [speaking through an interpreter]. I met 
personally with Charles Shapiro with the State Department. He 
saw me in his office. He explained to me that he had full 
knowledge of my situation, of my case. He said that every 6 
months they give a report, a 6-month report to the Cuban 
Government, asking for reparation on the violation of the 
treaty and presenting cases where the treaties are being 
violated. But the Cuban Government, according to Mr. Shapiro, 
the Cuban Government has never given him an answer, given the 
State Department an answer.
    I know that Congresswoman Ros-Lehtinen and Congressman 
Lincoln Diaz-Balart have also done their bit on my behalf, and 
I also think Congressman Serrano has taken up my case, who did 
not know of my case until about 2 weeks ago. He learned about 
my case in a television program where he was a speaker, a guest 
speaker with Oliver North. Michele from his office was here 
with us just now, and she said to me that they wanted to show 
me what Congressman Serrano's office was doing for the case. I 
truly believe that someone like Congressman Serrano or someone 
like Reverend Lucius Walker, because of a more friendly 
relationship with Castro, if they interceded my family would 
probably be released immediately, and I hope that this happens. 
Thank you.
    Ms. McKinney. Could you talk to me a little bit about what 
your responsibilities were with the Intelligence Service?
    Mr. Cohen. In Cuba?
    Ms. McKinney. Yes.
    Mr. Cohen. OK. [Speaking through an interpreter.] I 
specifically worked taking care of, in other words, giving 
personal attention to foreign investment in Cuba. I worked for 
a department the M-6 Department, whose charge, whose mandate 
was to study, to do a profile on any foreign, potential foreign 
investor from any foreign country who were coming to, you know, 
explore investing.
    I also worked for a time, a while, in other departments. In 
one of those departments, I worked in another department whose 
objective was to, in effect, steal technological information 
from the United States For example, there was a case where 
there was someone, the case of a microprocessor, the technology 
of that that the Cuban Government wanted to have, even though 
this technology cannot be used in Cuba because there is just no 
way of using it. But the Cuban Government would then send that 
information, release that information to governments like the 
Iraqi Government, sometimes like China.
    That is why sometimes I say to friends, people that I know, 
that I am friends with in this country, that Fidel Castro is 
not just the enemy of the Cuban family or of the Cuban people. 
He is an enemy of all of us, yourself included, yourselves 
included.
    But in order for me to explain this, a lot of people say to 
me I am betraying Fidel Castro. And my answer is, Fidel Castro 
has betrayed the Cuban people. And the people I don't want to 
betray are my people, is my people, because I was forced, I had 
no choice, really. That is my reality, and I am branded by that 
past. That is a result of having had no choice, up to a point.
    Ms. McKinney. You mentioned that the Cuban Government keeps 
a file----
    Mr. Cohen. The Cuban Government?
    Ms. McKinney [continuing]. Yes, keeps a file on people who 
travel there. And we have recently learned that the U.S. 
Government itself might be keeping files, as well, similar 
kinds of files. Recent revelations about a particular program 
of the National Security Agency called ``Echelon'' that 
monitors all telephone calls, all e-mails, all faxes, all 
communication that I would conduct with my colleague, any 
communication that I would conduct with friends that I have 
abroad, it is my understanding, and we are just finding this 
out, that all of that communication has the potential of being 
intercepted by the U.S. Government.
    Now, when I went to China, I was told that one of the bad 
things about China was that they listen to the e-mails and the 
communications of people in China, and so I am a bit shocked to 
discover that my own government does the same thing. But I 
shouldn't be very much surprised because my father's name was 
mentioned as one who was under surveillance by the government, 
whatever, local or Federal Government, because of his civil 
rights activities in this country.
    So I don't know that--I guess the point I am trying to make 
is that perhaps, maybe it is just the nature of government, 
period, that our private, innermost thoughts are intercepted or 
can be intercepted by people that we trust.
    Ms. Fuentes. He says first of all he doesn't really know 
the extent to which things are operant in this country.
    Mr. Cohen [speaking through an interpreter]. But I want to 
say that there is a great difference, and I will explain. If 
there are files that the U.S. Government has available or has 
opened, it is because the United States is protecting its own 
Nation, its own interests. The President of the United States 
is democratically elected, and I feel that all the strength of 
government and all the efforts are rightfully praised in 
preserving the security and the survival of this country, of 
this system, of this Nation.
    The difference that I see when comparing it to Cuba, that 
in Cuba the only interests that are being advocated for or 
defended are the interests of one person, of one ego, not the 
interests of the whole nation. The interests of the people are 
really not the ones that are being advocated.
    And the saddest thing I see is that in Cuba someone like 
you could not possibly say what you have just said in a country 
where there is freedom. No one can go up to the National 
Congress, the National Assembly, with a different idea or with 
a criticism of some sort.
    Which is why I respect this country and I admire it, 
because I am a witness. I have seen that freedom, those rights, 
but that freedom that we enjoy here, that the society enjoys, 
is unfortunately used by the Cuban Government, by governments 
like the Cuban Government. I truly, from the bottom of my 
heart, respect your points of view, and I have a lot of things 
to learn from a person like you.
    But you have a photograph of Elian on your lapel, and you 
are advocating for his return to Cuba. That is freedom. But to 
think that in Cuba anybody could have a photograph on their 
lapel of my family, do you really think that anyone in Cuba can 
say on the street that they are in favor of the reunification 
of this family? This is what I think makes up the difference, 
and every day I thank God for allowing me to see all this and 
be here. Thank you.
    Ms. McKinney. Thank you.
    I would just like to remind the Chairman that we do have 
victims of our own government, U.S. Government excesses in the 
COINTEL program, the counterintelligence program, where African 
American and minority leaders were targeted and in some cases 
eliminated because of their advocacy for freedom for black 
people and minorities in this country.
    I have other information that I would like to submit for 
the record, Mr. Chairman. I have got a letter from Congressman 
Ney and some information from Congressman Ciro Rodriguez, who 
would like to have their information entered into the record.
    Mr. Smith. Without objection, those additions will be made 
a part of the record.
    Ms. McKinney. Finally, Mr. Chairman, if I can be indulged 
just two questions more, one on Amnesty International reports 
that, of 27,000 people interviewed, they only found 10 who had 
claims of political persecution. Do the panelists think that 
this is reflective of the reason why people leave Cuba?
    Mr. Cohen [speaking through an interpreter]. Twenty-seven 
thousand Cubans, interviewed by Amnesty International----
    Ms. McKinney. Yes.
    Mr. Cohen [continuing]. In Cuba?
    Ms. McKinney. No. These are people who had left, and I 
believe that, yes, they were in Guantanamo Bay, I believe. I 
can find out.
    Ms. Dominguez. Ms. McKinney, I would like to answer that, 
please. Actually, I was very involved in Guantanamo, and I can 
answer that.
    One of the reasons that perhaps Amnesty International was 
not able to find as many people interested in applying for 
asylum is because we do have the Cuban Adjustment Act, and many 
people would not--the asylum process is very difficult. It is 
hardly understood by people who come in from systems that are 
repressive. They do not understand what the procedure is all 
about.
    I do conduct a class on a weekly basis to people who are 
seeking asylum, because I think it is our duty to inform them 
about the procedure. It is very difficult to understand, and I 
am talking about Chinese, I am talking about Haitians, I am 
talking about Colombians, I am talking about Cubans. And I find 
that it is my duty to explain the process because many people 
might have a case, and yet they are not able to elaborate or to 
explain it to the satisfaction of the asylum officer, and that 
could have happened to anyone who might not have been able to 
hear it explain, the procedure beforehand.
    One of the things that we are finding now in Cuba is that 
unfortunately we have the in-country refugee processing 
program, and unlike many other countries, Cuba does not allow 
NGO's or a ``VOLAG,'' (what we call a ``VOLAG'')to go in and 
act as a mediator or as a facilitator between the United States 
Government officer and the Cuban Government. And that is why a 
lot of people who then reach the U.S. Interest Section cannot 
qualify, because they do not know.
    I do have now a program that gets aired to Cuba every 
Wednesday, where I explain precisely the immigration rules and 
regulations, because we do want to actually encourage the 
orderly process in immigration, under immigration laws. And I 
don't think that the interviews are really reflective, in 
answer to your question. I think this just basically reflects 
the overall response of anyone who comes out of the country and 
they don't know what to say because they don't know what is 
important.
    Besides, they are in fact very fearful when you have an 
officer interviewing them, and Amnesty International people 
might have come across as maybe people who might have been 
representing a government agenda. And that, it happens to me 
too. I always have to clarify, I do not represent the 
government. I have to first establish myself as an NGO before 
they can even confide in me. It is very difficult.
    And again I wanted to touch also on a point that somebody 
asked about Mr. Cohen's situation. I think he is not unique. 
There are many, many things that happen to people who actually 
ask for asylum here in the United States. They are granted 
asylum, and yet their family members are really sanctioned in 
Cuba. The United States Government does not disclose this 
information but yet, because of the procedural processes that 
exist there, because of the in-country refugee processing 
program, the Government of Cuba does punish the family members 
and they do retaliate by avoiding or denying the exit visas to 
those people.
    And I would suggest something else to this Subcommittee. 
There are migration talks every 6 months between Cuba and the 
State Department and INS. It would be very interesting and very 
useful for many of you to actually try to find out what goes on 
during those migration talks. There are certain, I am sure, 
understandings and agreements that might even be impacting the 
situation that we have today.
    I can tell you that from my experience, people in his [Mr. 
Cohen's] situation, this has been going on forever. I mean, 
this is not new. We have a long list of cases. The United 
States has stepped in many times to try to resolve this issue. 
We haven't yet come to any, you know, conclusive solution to 
this. But I just wanted to let you know that this has been 
going on for a while.
    Mr. Smith. Would my friend from Georgia yield to Joseph 
Rees?
    Ms. McKinney. Sure.
    Mr. Smith. Joseph Rees used to be the general counsel of 
the INS before becoming chief counsel and staff director of the 
International Operations and Human Rights Subcommittee.
    Mr. Rees. I just wanted to comment that that statistic, 10 
out of 27,000, I assume that you knew that that wasn't that 
Amnesty thought there were only 10 legitimate refugees out of 
27,000. That was the number that INS found out of 27,000 people 
who managed to escape on rafts and were picked up on the high 
seas.
    And that statistic is eerily reminiscent of the number of 
Haitians that we found when we were doing that for about 10 
years between 1981 and 1991. Out of 22,000 people interviewed, 
we only found 11 people who were deemed to be refugees. Well, 
once we started doing it right in 1991, we found 30 percent to 
at least have a credible case of being refugees.
    So a lot of it just depends on how close a look you take, 
and I think the Chairman will probably take Professor Dominguez 
up on the suggestion that we need to take a closer look both at 
the in-country refugee processing, at the interviews for the 
people who come on rafts, and at what impact those migration 
talks have.
    Ms. McKinney. Thank you. My final question would be about 
U.S. policy to overthrow Castro. There have been assassination 
attempts and other kinds of biological terrorism that has been 
used, invasion on at least one occasion, to try and overthrow 
Castro, and nothing has worked. Why?
    Mr. Cohen [speaking through a translator]. My personal 
opinion, so many of these things happened long before I was 
born, that I don't think there really was a serious attempt on 
the part of this country to kill Fidel Castro. This is my 
personal opinion. Why do I feel this way? I also do not have 
evidence, and I don't think any of us here have evidence of 
everything that Fidel Castro says or claims that has been done 
as attempts on his life. I think there is a CIA document to the 
effect, that addresses this issue, but I personally don't think 
that there was ever a serious, a real serious, concerted 
attempt.
    Neither would I want to advocate in favor or to opine in 
favor of such attempts. What I can say to you, the 
demoralization, the breakdown of authority, of degradation, of 
humiliation, of lost values of the Cuban intelligence system or 
the counterintelligence system would not allow--no, ``allow'' 
is not the word--would not withstand a real serious attempt.
    In other words, a few months ago a member of Castro's 
personal bodyguard defected. His name was Lazaro Betancourt, 
more or less my age, whose family is in Cuba, of course as a 
hostage. And I told him, ``Are you the only one who feels this 
way?'' ``No, I'm the only one who dared to defect, because not 
everyone is willing to have their family be retained as a 
hostage and be harassed.''
    Truly, and Castro knows this, all of that, all of this 
system, this entire thing will end with his life. When his life 
ends, all of this will come to an end. Not that we are betting 
on this or that you are betting on it, or that we are 
projecting or prophesying or anything like that. Cuba will be 
free.
    And he knows, Castro knows, that no one is going to really 
attempt to end his life, not in Cuba, because there are no 
conditions that would enable such an attempt, because there is 
over a 2,000-man security force around him, with 33,000 men, 
and you can't get weapons in Cuba freely. So whatever attempts 
might have occurred in the past, I don't really think they were 
motivated truly or seriously, and of course for Castro that 
becomes, he turns it into some sort of victory. Thank you.
    Ms. McKinney. Mr. Chairman, I would like to put additional 
information into the record about those assassination attempts.
    Mr. Smith. Mr. Cohen, thank you. I just have one final 
question, and I think, Mr. Cohen, you might be the right one to 
direct it to.
    When the grandmothers came to the United States and met 
with Sister Jean and Elian, there were reports that Cuba's or 
Castro's agents accompanied them. Is that the same today? Is 
that true, in your opinion?
    And, second, Mr. Gonzalez, who is obviously here in the 
United States right now, are agents also accompanying him, both 
in-country or people who have come with him? And, in your view, 
and I know this is speculation--but is he operating on a 
script? I mean, if he steps off and says something out of 
balance, is there a possibility of retaliation?
    Mr. Cohen [speaking through a translator]. The first public 
appearance that Mr. Gonzalez made was to look for the--to show 
the video--oh, there is a video of that presentation, of that 
first public appearance. The person immediately to his right, 
is Felix Wilson. He is an officer of the B-1 Intelligence 
Department. M-1, I'm sorry, ``M'' as in Mary, 1. He knows me; I 
know him.
    The M-1 Department, their task, their mandate is to 
operate, to guide operations against the United States. There 
are various departments, sub-departments within that 
department. There is Department M-1, Section 1. That is where 
Felix Wilson works, and his task, his responsibilities are 
emphatically, in other words, on the U.S. Government. That is 
his task.
    The target of this gentleman is the United States, so his 
task is to develop relationships with, for example, university 
professors, with scholars, to do a review, to do a profile on 
them, to inform, to try to influence lobbying in Congress, with 
a structured methodology that takes 75 percent of propaganda, 
or in other words, untruth, and 25 percent of truth. And this, 
according to Mr. Cohen, is a methodology of preparing 
information.
    Elian's father is here, and he has to answer, he has to act 
according to that libretto, to that script. He cannot speak 
freely, he cannot speak openly, and he cannot contact his 
family here, his American family. And the reason why he cannot 
contact the family, he will discover the actual truth of what 
his potential life could be in this country. In other words, he 
will have access to information that is withheld from him by 
the Cuban Government.
    That doesn't mean that if he contacts his family, he will 
automatically make a decision to stay in the United States, 
because the grandmothers are there, in other words, his mother. 
There is a lot of family pressures and people left behind. But 
he will discover an alternative reality, the reality that we 
have here, and that is a great risk for Fidel Castro's balanced 
scheme.
    Mr. Smith. Thank you very much for that answer and for the 
insight it provides us. I would like to thank our very 
distinguished witnesses. If they have anything further they 
would like to convey to the Subcommittee?
    On behalf of my Ranking Member, Ms. McKinney from Georgia, 
the other Members of the Committee, we thank you so very much. 
We will be getting back to you probably with some additional 
questions, and this will be the first in a series of hearings, 
so I look forward to building on this record and as widely as 
possible disseminating the information. So we do thank you so 
very much.
    Mr. Cohen. Thank you. Thank you very much.
    Ms. Dominguez. Thank you.
    Ms. Fuentes. Thank you.
    [Whereupon, at 6:40 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 13, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8020.001
    
    [GRAPHIC] [TIFF OMITTED] T8020.002
    
    [GRAPHIC] [TIFF OMITTED] T8020.003
    
    [GRAPHIC] [TIFF OMITTED] T8020.004
    
    [GRAPHIC] [TIFF OMITTED] T8020.005
    
    [GRAPHIC] [TIFF OMITTED] T8020.006
    
    [GRAPHIC] [TIFF OMITTED] T8020.007
    
    [GRAPHIC] [TIFF OMITTED] T8020.008
    
    [GRAPHIC] [TIFF OMITTED] T8020.009
    
    [GRAPHIC] [TIFF OMITTED] T8020.010
    
    [GRAPHIC] [TIFF OMITTED] T8020.011
    
    [GRAPHIC] [TIFF OMITTED] T8020.012
    
    [GRAPHIC] [TIFF OMITTED] T8020.013
    
    [GRAPHIC] [TIFF OMITTED] T8020.014
    
    [GRAPHIC] [TIFF OMITTED] T8020.015
    
    [GRAPHIC] [TIFF OMITTED] T8020.016
    
    [GRAPHIC] [TIFF OMITTED] T8020.017
    
    [GRAPHIC] [TIFF OMITTED] T8020.018
    
    [GRAPHIC] [TIFF OMITTED] T8020.019
    
    [GRAPHIC] [TIFF OMITTED] T8020.020
    
    [GRAPHIC] [TIFF OMITTED] T8020.021
    
    [GRAPHIC] [TIFF OMITTED] T8020.022
    
    [GRAPHIC] [TIFF OMITTED] T8020.023
    
    [GRAPHIC] [TIFF OMITTED] T8020.024
    
    [GRAPHIC] [TIFF OMITTED] T8020.025
    
    [GRAPHIC] [TIFF OMITTED] T8020.026
    
    [GRAPHIC] [TIFF OMITTED] T8020.027
    
    [GRAPHIC] [TIFF OMITTED] T8020.028
    
    [GRAPHIC] [TIFF OMITTED] T8020.029
    
    [GRAPHIC] [TIFF OMITTED] T8020.030
    
    [GRAPHIC] [TIFF OMITTED] T8020.031
    
    [GRAPHIC] [TIFF OMITTED] T8020.032
    
    [GRAPHIC] [TIFF OMITTED] T8020.033
    
    [GRAPHIC] [TIFF OMITTED] T8020.034
    
    [GRAPHIC] [TIFF OMITTED] T8020.035
    
    [GRAPHIC] [TIFF OMITTED] T8020.036
    
    [GRAPHIC] [TIFF OMITTED] T8020.037
    
    [GRAPHIC] [TIFF OMITTED] T8020.038
    
    [GRAPHIC] [TIFF OMITTED] T8020.039
    
    [GRAPHIC] [TIFF OMITTED] T8020.040
    
    [GRAPHIC] [TIFF OMITTED] T8020.041
    
    [GRAPHIC] [TIFF OMITTED] T8020.042
    
    [GRAPHIC] [TIFF OMITTED] T8020.043
    
    [GRAPHIC] [TIFF OMITTED] T8020.044
    
    [GRAPHIC] [TIFF OMITTED] T8020.045
    
    [GRAPHIC] [TIFF OMITTED] T8020.046
    
    [GRAPHIC] [TIFF OMITTED] T8020.047
    
    [GRAPHIC] [TIFF OMITTED] T8020.048
    
    [GRAPHIC] [TIFF OMITTED] T8020.049
    
    [GRAPHIC] [TIFF OMITTED] T8020.050
    
    [GRAPHIC] [TIFF OMITTED] T8020.051
    
    [GRAPHIC] [TIFF OMITTED] T8020.052
    
    [GRAPHIC] [TIFF OMITTED] T8020.053
    
    [GRAPHIC] [TIFF OMITTED] T8020.054
    
    [GRAPHIC] [TIFF OMITTED] T8020.055
    
    [GRAPHIC] [TIFF OMITTED] T8020.056
    
    [GRAPHIC] [TIFF OMITTED] T8020.057
    
    [GRAPHIC] [TIFF OMITTED] T8020.058
    
    [GRAPHIC] [TIFF OMITTED] T8020.059
    
    [GRAPHIC] [TIFF OMITTED] T8020.060
    
    [GRAPHIC] [TIFF OMITTED] T8020.061
    
    [GRAPHIC] [TIFF OMITTED] T8020.062
    
    [GRAPHIC] [TIFF OMITTED] T8020.063
    
    [GRAPHIC] [TIFF OMITTED] T8020.064
    
    [GRAPHIC] [TIFF OMITTED] T8020.065
    
    [GRAPHIC] [TIFF OMITTED] T8020.066
    
    [GRAPHIC] [TIFF OMITTED] T8020.067
    
    [GRAPHIC] [TIFF OMITTED] T8020.068
    
    [GRAPHIC] [TIFF OMITTED] T8020.069
    
    [GRAPHIC] [TIFF OMITTED] T8020.070
    
    [GRAPHIC] [TIFF OMITTED] T8020.071
    
    [GRAPHIC] [TIFF OMITTED] T8020.072
    
    [GRAPHIC] [TIFF OMITTED] T8020.073
    
    [GRAPHIC] [TIFF OMITTED] T8020.074
    
    [GRAPHIC] [TIFF OMITTED] T8020.075
    
    [GRAPHIC] [TIFF OMITTED] T8020.076
    
    [GRAPHIC] [TIFF OMITTED] T8020.077
    
    [GRAPHIC] [TIFF OMITTED] T8020.078
    
    [GRAPHIC] [TIFF OMITTED] T8020.079
    
    [GRAPHIC] [TIFF OMITTED] T8020.080
    
    [GRAPHIC] [TIFF OMITTED] T8020.081
    
    [GRAPHIC] [TIFF OMITTED] T8020.082
    
    [GRAPHIC] [TIFF OMITTED] T8020.083
    
    [GRAPHIC] [TIFF OMITTED] T8020.084
    
    [GRAPHIC] [TIFF OMITTED] T8020.085
    
    [GRAPHIC] [TIFF OMITTED] T8020.086
    
    [GRAPHIC] [TIFF OMITTED] T8020.087
    
    [GRAPHIC] [TIFF OMITTED] T8020.088
    

</pre></body></html>
